       AVIATION INDUSTRY PERFORMANCE

A Review of Summer 2007 Aviation System Performance

               Number: CC-2008-039

           Date Issued: December 27, 2007
           U.S. Department of
                                                                  Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   INFORMATION: Aviation Industry                                                   Date:    December 27, 2007
           Performance

  From:                                                                                  Reply to
           David A. Dobbs                                                                Attn. of:   JA-1
           Principal Assistant Inspector General
             for Auditing and Evaluation
    To:    The Secretary
           Acting Federal Aviation Administrator
           Assistant Secretary for Aviation and International Affairs

           This is the ninth in a series of periodic updates to our aviation industry
           performance report. The performance metrics were developed in 2002 as a
           mechanism for monitoring aviation industry trends, including domestic demand
           and capacity, aviation system performance, airline finances and air service in
           small communities. 1 Given the intense public interest in the summer of 2007
           period, this report will focus specifically on industry performance, during the June
           through August 2007 period.

           Record numbers of passengers, coupled with constraints on capacity growth by the
           airlines, yielded record high passenger load factors for domestic airlines during the
           summer of 2007. However, flight disruptions and long delays led to a sharp rise in
           consumer complaints. Consequently, industry performance has captured the
           attention of many constituencies, including Congress, the Secretary of
           Transportation and notably the President of the United States.

           We found that on-time flight performance, during the summer of 2007,
           deteriorated broadly from last year’s already poor levels. Of the 55 airports
           tracked by FAA, the number of delayed flights increased at 51 airports and the
           average length of delays increased at 52 airports. In contrast, the number of
           scheduled flights increased at only 33 of the airports. Principally, the number, rate


           1
               The performance metrics are based on data collected and processed by the Department of Transportation’s Office of
               Aviation Analysis, Bureau of Transportation Statistics, Office of Airline Information, Federal Aviation
               Administration and by the Air Transport Association.


           CC-2008-039                                               i
and duration of flight delays increased from the summer of 2006 to the summer of
2007.

In response to these issues, the Secretary of Transportation announced that she
would form a task force known as the Aviation Rulemaking Committee (ARC).
The ARC, comprised of airline, airport and travel officials, developed measures to
address air traffic congestion at New York’s three major airports. Additionally,
the Secretary called a scheduling reduction meeting in October 2007 with airlines
serving New York’s John F. Kennedy International Airport with the goal of
achieving voluntary reductions in the number of scheduled flights at that airport.
On December 19, 2007, the Department announced an initial agreement to cap
hourly operations at Kennedy Airport and implement procedures, such as opening
military airspace to civilian traffic to reduce delays.

Attached to this report are three exhibits: Exhibit A, Summary of Aviation
Industry Metrics, which contains detailed textual and graphic presentations of
industry measures; Exhibit B, Scope and Methodology, which explains sources,
analyses, and terms employed; and Exhibit C, which lists Office of Inspector
General (OIG) contributors to the report.

The following highlights the most significant trends that emerged since our last
report, in August 2006, 2 and specifically during the summer of 2007.

Summer 2007 Delays and Cancellations Exceeded Summer 2006
Levels
The percentage of delayed flight arrivals 3 rose from 26 percent in the summer of
2006 to 29 percent in the summer of 2007. This represents nearly 621,000 delayed
flights in summer 2007, an increase of 15 percent above the approximately
539,000 delayed flights in the summer of 2006. The average length of delays rose
from 56 minutes in the summer of 2006 to 60 minutes in the summer of 2007 (a
6 percent increase). Delays increased far faster than the number of flights which
increased only one percent during the summer of 2007 to just over 2.0 million
flights at 55 large airports tracked by FAA. Of those 55 airports, 51 experienced
an increase in the number of arrival delays, ranging from 1 percent (Chicago
Midway) to 57 percent (Dallas/Fort Worth). The length of the delays increased at
52 of the airports from less than a one minute increase at Phoenix to a 11 minute
increase at Dallas/Fort Worth.



2
    OIG Report Number CC-2006-073, “Aviation Industry Performance: Trends in Demand and Capacity, Aviation
    System Performance, Airline Finances and Service to Small Airports,” August 4, 2006. OIG reports can be found on
    our website: www.oig.dot.gov.
3
    A flight is considered delayed when it arrives 15 or more minutes after its scheduled arrival time.


CC-2008-039                                               ii
Flight cancellation performance deteriorated from last year’s levels as well.
Airlines cancelled nearly 48,000 flights at the 55 airports during the summer of
2007. This was a 28 percent increase above last summer when just over 37,000
flights were cancelled. Table 1 is a comparison of increases in the summer of
2006 and the summer of 2007.

             Table 1. Increases in Flight Delays and Cancellations
                                   (Summer 2006 and Summer 2007)

        Notable Statistics                   Summer 2006               Summer 2007               Percent Change

Scheduled Flights                                1,986,654                 2,014,279                     + 1%

Percent Delayed                                      26%                      29%                       + 12%

Airports With Delays > 30%                             9                        26                      + 189%

Length of Arrival Delays                        56 minutes                60 minutes                     + 6%

Cancelled Flights                                  37,396                    47,911                     + 28%
* Comparison of June through August 2006 and 2007, as tracked by FAA at 55 airports.


At New York John F. Kennedy International Airport, the summer of 2006 arrival
delay rate was 36.7 percent, but the addition of 9,700 scheduled flights contributed
to a summer of 2007 arrival delay rate of 41.4 percent. Although New York
La Guardia and Newark Liberty International Airports did not experience the same
rapid increase in the number of flights and delays, both airports still experienced
an arrival delay rate in excess of 38 percent. With one-third of the Nation’s air
traffic passing through the New York area, the impact of delays there can be felt
across the country.

Delays result from problems outside the carriers’ control such as weather, air
traffic control as well as problems within the carriers’ control such as mechanical
issues, crew availability and holding for connections. Carriers also report delays
caused by “late arriving aircraft.”

Figure 1 depicts the reasons for delays as reported by the airlines and adjusted for
late arriving aircraft. We proportionally allocated “late arriving aircraft” delays
across the other categories to provide a better picture of the primary causes of
delay 4 . When “late arriving aircraft” delays are allocated across the other reported


4
    “Late arriving aircraft” is a secondary cause of delay, the primary cause of delay is what caused the aircraft to arrive
    late. Delays are categorized as “late arriving aircraft” when the previous flight operated with the same aircraft
    arrives late, resulting in the current flight departing late.


CC-2008-039                                                   iii
reasons for delays, “carrier caused” delays rise to 45 percent of delayed arrivals.
Weather related reasons account for 35 percent.
                                    Figure 1. Reasons for Flight Delays
                                           (June through August 2007)

     As Reported by Airlines                                    Adjusted for Late Arriving Aircraft


                                                                                       Other
                                                                                        9%
                                                                     Runw ay Closure
                                          Carrier Caused                   5%
       Late Arriving                            29%
         Aircraft                                                  ATC Volume
           35%                                                        6%

                                                                                               Carrier Caused
                                                                                                    45%




         Other
          6%                           Weather
                                        23%
     Runw ay Closure                                                   Weather
           3%                                                           35%
                       ATC Volume
                          4%




The Number of Scheduled Flights Remained Relatively Flat Since
2006
On average, domestic passenger service (scheduled flights) remained steady over
the last year. At the country’s largest airports, scheduled departures in the
summer of 2007 were up only 1 percent over the summer of 2006, remaining
relatively unchanged at most of these airports. Notable exceptions occurred at
New York Kennedy (+25 percent), San Diego, Orlando, and San Francisco (+6
percent each) and Pittsburgh where scheduled departures declined by 11 percent.
As figure 2 indicates, the number of scheduled flights continues to remain below
summer 2001 levels.




CC-2008-039                                                iv
                          Figure 2. Change in Scheduled Flights, 2001-2007
                                                                                                   (Base Year 2000)



 2%




-3%




-8%


                                                                                                                   United, US Airways,
                                                                                                                   Delta, and Northwest all
-13%
                                                                                                                   operating in bankruptcy

                                                     Flights reach lowest point
                                                     after 9/11 at -14%                                                                                                       Fuel up 185% from 2000: 2.05/gallon
-18%
       Jan-01
                Apr-01


                                  Oct-01




                                                                      Oct-02




                                                                                                          Oct-03




                                                                                                                                              Oct-04




                                                                                                                                                                                  Oct-05




                                                                                                                                                                                                                      Oct-06
                         Jul-01


                                           Jan-02
                                                    Apr-02
                                                             Jul-02


                                                                               Jan-03
                                                                                        Apr-03
                                                                                                 Jul-03


                                                                                                                   Jan-04
                                                                                                                            Apr-04
                                                                                                                                     Jul-04


                                                                                                                                                       Jan-05
                                                                                                                                                                Apr-05
                                                                                                                                                                         Jul-05


                                                                                                                                                                                           Jan-06
                                                                                                                                                                                                    Apr-06
                                                                                                                                                                                                             Jul-06


                                                                                                                                                                                                                               Jan-07
                                                                                                                                                                                                                                        Apr-07


                                                                                                                                                                                                                                                          Oct-07
                                                                                                                                                                                                                                                 Jul-07
Major Passenger Carriers Improved Their Financial Performance by
Placing More Passengers on Essentially the Same Number of Flights
The third quarter of 2007 marked the sixth consecutive quarter that the major
passenger airlines, as a group, posted operating profits (nearly $2.9 billion). The
major passenger airlines achieved these results through strict cost controls and
strong passenger demand in concert with limited increases in domestic capacity.
While these efforts have had a positive effect on airline financial performance, it
also results in fewer available seats to accommodate displaced passengers from
disrupted flights. This issue was a major contributor to the rise in airline customer
service complaints.

On the revenue side, the average fare paid by passengers remained relatively flat.
Despite numerous attempted fare increases in the first half of the year, competition
and passenger resistance to increasing fares have rendered most attempts
unsuccessful. Revenues improved as airlines added passengers to existing flights
(rather than add additional flights and costs). Future revenue increases are
questionable as load factors (percent of seats sold) have already hit record highs
(83 percent in the second quarter of 2007). The airlines’ main strategy to improve


CC-2008-039                                                                                                                    v
revenues by increasing fares and reducing discounting must overcome passenger
resistance to higher fares in order to be successful.

Beginning in the second quarter of 2007, network airlines’ non-fuel domestic
operating costs (operating costs borne by an airline excluding fuel) increased.
Since 2001, the network airlines experienced success in reducing these costs
through organizational changes and by reducing available capacity. However, in
the second quarter of 2007, this combination of efforts ceased producing reduced
non-fuel costs. Additional structural changes that will produce significant cost
reductions like those experienced since 2001 are unlikely in the near future. As a
result, we expect to see future increases in non-fuel operating costs.




CC-2008-039                             vi
                      TABLE OF CONTENTS

AVIATION SYSTEM PERFORMANCE
  Figure 1: Actual Flight Operations. ........................................................................1
  Figure 2: Number of Flights With Delayed Arrivals ..............................................1
  Figure 3: Cancellations ...........................................................................................2
  Figure 4: Percent of Flights Arriving Late..............................................................2
  Figure 5: Length of Arrival Delays.........................................................................3
  Figure 6: Most Significant Changes in Arrival Delays by Airport.........................3
AIR SERVICE DEMAND AND CAPACITY
  Figure 7: Domestic Passenger Enplanements 2000 - 2006....................................4
  Figure 8: Domestic Revenue Passenger-Miles and Available Seat-Miles.............4
  Figure 9: Domestic and International Revenue Passenger-Miles ..........................5
  Figure 10: International Passenger Traffic ............................................................5
  Figure 11: Nine Major Airlines Reported Arrivals................................................6
  Figure 12: Regional Differences in Capacity at All Airports ................................6
  Figure 13: Change in Capacity at Large Airports..................................................7
  Figure 14: Length of Domestic Flights..................................................................8
  Figure 15: Short Haul Flights: Seats by Type of Airline ......................................8
  Figure 16: Domestic and International Air Cargo Traffic ......................................9
  Figure 17: Domestic Market Share by Seller Carrier Group ..................................9
  Figure 18: Share of Low-Cost Carrier Service Growth ........................................10
  Figure 19: Market Share of Low-Cost Carrier Service ........................................10
  Figure 20: Market Share by Aircraft Type ...........................................................10
AIRLINE FINANCES
  Figure 21: Revenues versus Expenses ..................................................................11
  Figure 22: Selected Network and Low-Cost Carriers Operating
             Profit or Loss........................................................................................11
  Figure 23: Accumulated Net Losses and Gains....................................................12
  Figure 24: Domestic Cost Per Available Seat-Mile (CASM)...............................12
  Figure 25: Domestic Yield for Seven Major Airlines...........................................13
  Figure 26: Average; Short-, Medium-, and Long-Haul Fares for
             Second Quarters 2000-2006.................................................................13
  Figure 27: Use of Business Fares..........................................................................14
  Figure 28: Passenger Load Factors .......................................................................14
  Figure 29: Actual Airline Load Factors ................................................................14
  Figure 30: Debt-to-Investment Ratio ...................................................................15
  Figure 31: Debt-to-Investment Ratio by Airline...................................................15
  Figure 32: Cost Per Gallon Domestic Jet Fuel......................................................16
  Figure 33: Airport and Airway Trust Fund...........................................................16
AIR SERVICE AT SMALL AIRPORTS
  Figure 34: Changes in Service by Airport Size ....................................................17
  Figure 35: Access to Large Airports.....................................................................17
  Figure 36: Regional Differences in Service at Non-Hubs ....................................18
  Figure 37: Essential Air Service ...........................................................................18
                                                                                                                                                               1



                        EXHIBIT A. SUMMARY OF AIRLINE INDUSTRY METRICS

                        AVIATION SYSTEM PERFORMANCE

                        ACTUAL FLIGHT OPERATIONS. Two years after September 11, 2001, domestic
                        aircraft operations handled by FAA’s Air Route Traffic Control Centers began to
                        recover and surpassed earlier levels. Domestic aircraft operations handled at these
                        centers increased and reached their highest levels in December 2004
                        (+7.43 percent). Over the last 12 months, operations at these Centers increased an
                        average of 1.55 percent. [Figure 1]

Figure 1: Actual Flight Operations                                   Figure 2: Number of Flights With Delayed Arrivals
Percent Change in Air Route Traffic Control Center Operations (FAA   - All airlines, 55 major airports (FAA Data)
Data), Sept 2001 - Sept 2007
                                                                                        250000                     June-Aug '07 vs '06
                       10%                                                                                               +15%

                                                                                        200000
                        5%
                                                                     Delayed Arrivals
   Percentage Change




                        0%                                                              150000


                       -5%                                                              100000
                                                    Sept-07 -1%

                       -10%
                                                                                         50000
                              Sept-01 -16%
                       -15%
                                                                                            0
                                                                                                                          May




                                                                                                                                                                   Nov
                                                                                                             Mar

                                                                                                                    Apr




                                                                                                                                             Aug



                                                                                                                                                         Oct



                                                                                                                                                                         Dec
                                                                                                 Jan

                                                                                                       Feb




                                                                                                                                Jun

                                                                                                                                      Jul



                                                                                                                                                   Sep
                       -20%
                       Se 2



                       Se 3



                       Se 4



                       Se 5



                       Se 6



                       Se 7
                             01



                             02



                             03



                             04



                             05



                             06



                             07
                            -0



                            -0



                            -0



                            -0



                            -0



                            -0
                         p-



                         p-



                         p-



                         p-



                         p-



                         p-



                         p-
                         ar



                         ar



                         ar



                         ar



                         ar



                         ar
                       Se

                       M




                                                                                                              2000                    2006                     2007
                       M



                       M



                       M



                       M



                       M




                        ARRIVAL DELAYS DURING THE SUMMER MONTHS. At the 55 airports tracked by
                        FAA, flight delays for the summer months (June-Aug '07) were the highest in
                        recent years. There were 621,000 arrival delays during the period, up 15.2 percent
                        over the summer of 2006 (539,000 arrival delays) and 7.0 percent above the
                        summer of 2000 (580,000 arrival delays). [Figure 2]

                        ARRIVAL DELAYS YEAR-TO-DATE. With the exception of September, arrival
                        delays for the first 9 months of 2007 are significantly higher than delays for the
                        same period in 2006. On average, monthly arrival delays for the first 9 months of
                        2007 were 12.4%, higher than the same period in 2006. Arrival delays for the first
                        9 months of 2007 were 1,655,483 compared to the same period in 2006
                        (1,472,452). During February 2007, arrival delays rose significantly over the
                        previous year due to a Valentine’s Day ice storm negatively impacting flight
                        operations at New York John F. Kennedy International Airport. JetBlue attempted
                        to operate a number of flights during the storm, but many planes were left at de-


                        Exhibit A. Summary of Airline Industry Metrics
                                                                                                                                                                                          2

                        icing stations for hours, some planes landed and took gates at the terminal, while
                        gridlock ensued. In March, US Airways experienced more delays, partly due to a
                        computer consolidation that caused passenger check-in and boarding problems
                        that delayed flights. [Figure 2]

                        CANCELLATIONS FOR SUMMER MONTHS. During the summer of 2007 (June-
                        August) flight cancellations for 55 large airports tracked by FAA were 48,000, a
                        28 percent rise over the summer of 2006 (37,396 cancellations), and 12 percent
                        higher than the summer months of 2000 (42,956 cancellations). Summer 2007
                        numbers were exacerbated by a crew shortage at Northwest Airlines, resulting in
                        numerous cancellations. [Figure 3]

                        CANCELLATIONS YEAR-OVER-YEAR. Cancellations for the first 9 months of
                        2007 at 55 major airports were 38 percent higher (138,934 cancellations) than
                        cancellations in the first 9 months of 2006 (100,830 cancellations). In February
                        cancellations doubled from last year, due to an ice-storm in the Northeast that
                        caused airlines to cancel flights. [Figure 3]

                Figure 3: Cancellations                                                                            Figure 4: Percent of Flights Arriving Late
                All airlines, 55 major airports (FAA Data)                                                         All airlines, 55 major airports (FAA Data)

                45000                                                                                              40%
                                                               June-Aug                                                                     June-Aug '07
                40000                                           '06 v '07                                                                    vs '06, 14%
                                                                  +28%
                35000
                                                                                                                   30%
                30000
Cancellations




                                                                                                      Percentage




                25000
                                                                                                                   20%
                20000

                15000
                                                                                                                   10%
                10000

                 5000

                    0                                                                                               0%
                                                                                                                                                    May
                                                                                                                                      Mar

                                                                                                                                              Apr




                                                                                                                                                                                              Nov
                                                  May




                                                                                                                                                                        Aug



                                                                                                                                                                                    Oct



                                                                                                                                                                                                    Dec
                                                                                          Nov
                                      Mar

                                            Apr




                                                                                                                          Jan

                                                                                                                                Feb




                                                                                                                                                           Jun

                                                                                                                                                                  Jul



                                                                                                                                                                              Sep
                                                                     Aug



                                                                                  Oct



                                                                                                Dec
                         Jan

                               Feb




                                                        Jun

                                                               Jul



                                                                            Sep




                               2000                     2006                       2007                                               2000                       2006                     2007




                        PERCENT OF FLIGHTS ARRIVING LATE, YEAR-TO-DATE. At the 55 major
                        airports tracked by FAA, the percent of flights arriving late, during the summer
                        months (June-August 2007), was 3.7 percentage points higher (29.4 percent) than
                        the same period in 2006 (25.7 percent) and 1.0 percentage points higher than the
                        same period in 2000 (28.3 percent). The percent of flights arriving late for all of
                        2006 (24.9 percent) was only slightly lower (.9 percentage point) than in all of
                        2000 (26 percent). However, the percent of flights arriving late for the first
                        9 months of 2007 was 29.6 percent, 2.7 percentage points higher than the first
                        9 months of 2006. The percent of flights arriving late reached a peak of
                        31 percent in February 2007. [Figure 4]



                        Exhibit A. Summary of Airline Industry Metrics
                                                                                                                                                                                       3

LENGTH OF GATE ARRIVAL DELAYS. The length of gate arrival delays during the
summer of 2007 at the 55 major
airports rose 5.6 percent (an average Figure 5: Length of Arrival Delays
59.5 minute delay), compared to the   All airlines, 55 major airports (FAA Data)

same period in 2006 (56.2 minute       75
                                                                                 June-Aug '06 56 minutes
delay). Gate arrival delays (June-                                               June-Aug '07 60 minutes
August) exceeded the average length    60

of delay for the summer of 2000, by




                                                                                                      Minutes
                                       45
10.2 percent (a 53.8 minute delay).
[Figure 5]                             30


                                                                                                                15

DELAYS AT SELECT AIRPORTS.
                                          0
During the summer 2007, Dallas/Fort




                                                                                                                                             May
                                                                                                                                 Mar

                                                                                                                                       Apr




                                                                                                                                                                                 Nov
                                                                                                                                                               Aug




                                                                                                                                                                           Oct




                                                                                                                                                                                           Dec
                                                                                                                     Jan

                                                                                                                           Feb




                                                                                                                                                   Jun




                                                                                                                                                                     Sep
                                                                                                                                                         Jul
Worth, Fort Lauderdale and Dallas
                                                     2000         2006      2007
Love airports experienced the
greatest increases in arrival delays
among the 55 airports tracked by FAA. Both Dallas airports suffered from severe
weather during June 2007, which caused a large increase in the number of arrival
delays for the entire summer of 2007, compared to a year earlier.

Newark, San Juan, Puerto Rico, and Louisville reported declines in the number of
arrival delays for the summer of 2007 compared to a year earlier. The declines in
   Figure 6: Most Significant Changes in Arrival
                                                            arrival delays at Newark and San
   Delays by Airport - Percent Change in Arrival Delays for Juan coincided with reductions in
    Summer 2007 vs. 2006 (FAA Data)                         flight operations at both airports.
       0.8
                                                            Although, Newark still ranked third
            57%
       0.6
                     46%
                                                            highest in terms of percent of
                             43%
                                                            arriving flights delayed among the
Percentage Change




       0.4
                                                            55 airports tracked by FAA. At
       0.2
                                                            Louisville, most of the reduction in
         0                                                  delayed flight arrivals resulted
                                    -3%   -5%
                                                    -10%
                                                            from improvements in the on-time
      -0.2
                                                            performance of cargo airline UPS.
      -0.4                                                  [Figure 6]
                                    rth           le         ov
                                                               e       rk         n            ille
                                  Wo           rda         sL        wa         ua         v
                              Ft.           de         l la        Ne         nJ        uis
                         s/              Lau         Da                     Sa        Lo
                      lla            Ft.
                    Da




Exhibit A. Summary of Airline Industry Metrics
                                                                                                                                                4



AIR SERVICE DEMAND AND CAPACITY
AIR TRAFFIC DEMAND.         System passenger enplanements on U.S. airlines
increased only 0.8 percent in 2006
                                       Figure 7: Passenger Enplanements 2000-
compared to 2005. This was the         2006 Scheduled Service System-Wide
fourth consecutive year enplanements   (DOT Data)
                                                                             738.6 744.6
increased. However, the growth rate      750

                                              698.9                    703.7
in 2006 was the lowest rate of growth
                                         700
during the four year period.




                                                                                                 Millions of Passengers
                                                    652.9        647.5
Enplanements in 2006 were 744.6          650
                                                           641.0

million, and exceeded 2000 levels by
6.5 percent, almost 45 million           600
passengers. In the first 9 months of
2007, passenger enplanement growth       550

resumed, increasing 3.1 percent over
the same period in 2006. [Figure 7]      500
                                              2000   2001  2002  2003   2004 2005  2006




DOMESTIC TRAFFIC AND CAPACITY. In the first 9 months of 2007, revenue
passenger-miles (RPMs) increased 3.2 percent over the same period of 2006
to 468 billion.           Meanwhile, available seat-miles (ASMs) grew 1.9
percent, to 581 billion during the same time period. This continues a long-term
moderate growth trend that began in 2001. Compared to the first 9 months of
2000, RPMs in the same period of 2007 were up 16.5 percent while
                                                         ASMs increased only 3.2 pe
  Figure 8: Domestic Revenue Passenger-Miles and
  Available Seat-Miles 2000-2007 (BTS Data)
                                                         rcent. The carriers’ ability
     220                                                 to      handle      increased
                                                         passenger traffic without a
     200
                                                         corresponding increase in
     180                                      82%Load    seat capacity resulted in a 9
  Billions




                                             Factor 3Q07
     160    73%Load
                                                         percentage point jump in
           Factor 3Q00
                                                         load factor (percent of seats
     140
                                                         occupied)                from
     120                                                 72.7 percent in the third
     100
                                                         quarter of 2000 to 82.3
                                                         percent) in the third quarter
             1Q00
                    3Q00

                           1Q01
                                  3Q01
                                         1Q02

                                                3Q02
                                                       1Q03

                                                              3Q03
                                                                     1Q04

                                                                            3Q04
                                                                                   1Q05

                                                                                          3Q05
                                                                                                                    1Q06
                                                                                                                           3Q06

                                                                                                                                  1Q07
                                                                                                                                         3Q07




                                                         of 2007. [Figure 8]
                    RPM                  ASM                  RPM trend                    ASM trend




Exhibit A. Summary of Airline Industry Metrics
                                                                                                                                                                       5

                 DOMESTIC AND INTERNATIONAL TRAFFIC. U.S. domestic passenger traffic
                 grew 3.2 percent in the first 9 months of 2007, compared to the same period in
                 2006. International traffic to and from the U.S. grew at an even faster rate
                 of 4.0 percent from the same period of 2006 to 365 billion RPMs in the first 9
                 months of 2007. The higher growth rate is a result of the airlines’ emphasis on
                 expanding international service. Also, international travel had a slower recovery
                 following the steep declines after September 11, 2001. Therefore, there is greater
                 room for growth in international travel, compared to domestic travel. [Figure 9]

           Figure 9: Domestic and International Revenue                     Figure 10: International Passenger Traffic
           Passenger-Miles 2000-2007 (BTS Data)                             Quarterly Revenue Passenger-Miles 1Qtr 2000-3Qtr 2007 (BTS Data)
                                                                                       80
           170
                                                                                                                Sept ember 11t h Impact
                                                                                       70
                                     Domestic
           145                                                                         60
Billions




                                                                            Billions
                                                                                       50
           120
                                     International                                     40                                                 SARS Epidemic


                                                                                       30
            95

                                                                                       20

            70                                                                         10
             00

             00
             01

             01

             02

             02

             03

             03

             04

             04

             05

             05

             06

             06

             07

             07
           1Q

           3Q

           1Q

           3Q

           1Q

           3Q

           1Q

           3Q
           1Q

           3Q

           1Q

           3Q

           1Q

           3Q

           1Q

           3Q




                                                                                        0
                                                                                         1Q0 0   4 Q0 0   3 Q0 1 2 Q0 2     1Q0 3     4 Q0 3     3 Q0 4   2 Q0 5   1Q0 6   4 Q0 6   3 Q0 7
                   Domestic actual                   International actual
                   International trend               Domestic trend                                                        Latin            Atlantic        Pacific




                 INTERNATIONAL PASSENGER GROWTH BY REGION. In the Atlantic region,
                 which is the largest of the international air service markets, passenger traffic grew
                 the highest (6.0 percent) in the first 9 months of 2007 over the same period in
                 2006. The Latin American region traffic grew 4.6 percent through September of
                 2007 compared to a year earlier. Growth in passenger traffic in the Pacific region
                 tempered recently, up only 0.3 percent in the first 9 months of 2007, compared to a
                 year ago. This was an actual decrease of 2.0 percent in the third quarter of 2007.
                 [Figure 10]




                 Exhibit A. Summary of Airline Industry Metrics
                                                                                                                                                   6

                       FLIGHT ARRIVALS. Between August 2000 and August 2007, seven major airlines
                       reported fewer domestic flight arrivals at the 55 major airports tracked by FAA;
                       the decreases ranged from 6 percent for America West to 54 percent for US
                       Airways 5 . In contrast, Southwest Airlines and Alaska Airlines reported increases
                       in arrivals of 30 percent and 15 percent respectively. [Figure 11]

Figure 11: Nine Major Airlines Reported Arrivals                                          Figure 12: Regional Differences in Capacity at All
Percent Change in Actual Arrivals by Airline August 2007 vs.
                                                                                          Airports
August 2000 (FAA Data 55 major airports)
                                                                                          Percent Change in Available Seats at All Airports August 2007 vs.
                    35%        30%                                                        August 2000 (FAA Data)
                    25%              15%                                                                                                Midwest
                    15%                                                                            West                                  -22%
                     5%                                                                            -5%
   Percent Change




                    -5%
                    -15%                   -6%   -7%
                                                                                                                                                    Northeast
                    -25%                                                                                                                              -17%
                                                       -25%
                    -35%                                      -30%
                                                                     -33%
                    -45%                                                    -37%

                    -55%                                                                                                                       South
                                                                                   -54%
                    -65%                                                                                                                        -5%
                                                                                 s
                                                               d




                                                                               lta
                                               t


                                               l
                                            ka




                                               t




                                                                     an
                             t




                                             ta
                                            es




                                                                              ay
                                           es
                           es




                                                           ite




                                                                                            Note: Excludes U.S.
                                                                             De
                                          en
                                          as




                                                                   ic
                                          W




                                                                            rw
                                          w
                         hw




                                                         Un


                                                                 er
                                        in


                                       rth
                                        Al


                                        a




                                                                          Ai




                                                                                            Possessions and Territories
                       ut




                                                               Am
                                      ic


                                      nt

                                    No




                                                                            US
                     So




                                    er




                                                                                                                                National Average -11%
                                   Co
                                  Am




                       REGIONAL DIFFERENCES IN DOMESTIC SERVICE. Nationwide, the number of
                       scheduled seats on domestic flights in August 2007 was 11 percent below
                       August 2000 levels. Seats declined in the Midwest (-22 percent), Northeast
                       (-17 percent), South (-5 percent), and West (-5 percent). In the last year (August
                       2006 to August 2007), scheduled seats nationwide increased slightly. Seats in all
                       four regions either increased or experienced minimal change. [Figure 12]




                           5
                                 We report US Airways and America West separately. Each carrier held separate operating authority during the
                                 time period covered in this report and reported financial and traffic data to DOT separately.


                       Exhibit A. Summary of Airline Industry Metrics
                                                                                                                   7

CAPACITY AT LARGE AIRPORTS. Since 2000, the changes in scheduled flights
and available seats into large airports varied significantly between airports. In
August 2007, available seats at 11 of the largest U.S. airports increased over
August 2000 levels. Airports gaining seats include Kennedy (46 percent), Fort
Lauderdale (28 percent), and Las Figure 13: Change in Capacity at Large Airports
Vegas (24 percent).                     Percent Change in Scheduled Flights and Available Seats at
                                               Largest Airports August 2007 vs. August 2000 (FAA Data)

The increases at these airports                    -60%   -40%   -20%   0%       20%   40%    60%
largely reflected growth in service
                                                                                                  Kennedy
by low-cost carriers. In contrast, to
                                                                                                  Fort Lauderdale
these increases, some airports
                                                                                                  Las Vegas
experienced considerable decreases.
                                                                                                  Orlando
Airports losing seats include
                                                                                                  San Diego
Pittsburgh (60 percent), St. Louis
                                                                                                  Denver
(56 percent), and Cincinnati
                                                                                                  Charlotte
(41 percent); these are airports                                                                  Tampa
where network carriers reduced                                                                    Baltimore
operations as part of the industry                                                                Houston
restructuring that has taken place.                                                               Salt Lake City
[Figure 13]                                                                                       Philadelphia

                                                                                                  Atlanta

                                                                                                  Seattle

                                                                                                  Phoenix

                                                                                                  Reagan National

                                                                                                  Dulles

                                                                                                  LaGuardia

                                                                                                  Honolulu

                                                                                                  Detroit

                                                                                                  Chicago O'Hare

                                                                                                  Minneapolis

                                                                                                  Dallas-Fort Worth

                                                                                                  New ark

                                                                                                  Miami

                                                                                                  Los Angeles

                                                                                                  Boston

                                                                                                  San Francisco

                                                                                                  Cincinnati

                                                                                                  St. Louis

                                                                                                  Pittsburgh



                                                             Scheduled Flights               Available Seats




Exhibit A. Summary of Airline Industry Metrics
                                                                                                                                                      8

                    LOSS OF SHORT-HAUL AIR SERVICE. In August 2007, scheduled domestic flights
                    were down 8 percent from August 2000. The largest decrease was in the shortest
                    flights: scheduled domestic flights with stage lengths less than 250 miles were
                    down 34 percent and flights between 250 miles and 499 miles were down 9
                    percent. In contrast, flights of 500 to 999 miles in length increased 22 percent and
                    flights of 1,000 miles or more increased 14 percent.

                    The drop in short-haul flights (flights less than 250 miles in length) primarily
                    reflected reductions by network carriers (-3.4 million seats) and by regional and
                    other smaller airlines (-2.4 million seats). In addition, low-cost carriers reduced
                    short-haul service a little during this period (-200,000 seats). [Figures 14 and 15]

Figure 14: Length of Domestic Flights                                        Figure 15: Short-Haul Flights: Seats by Type of
Percent Change in Scheduled Flights by Length of                             Airline Scheduled Available Seats on Flights Less than 250 Miles
Flight August 2007 vs. August 2000 (FAA Data)                                August 2007 vs. August 2000 (FAA Data)
                                                                                                                       9.8
                    30%                                  22%
                                                                                                  10
                                                                                                  9
                    20%                                              14%
                                                                                                  8                          7.4
                    10%                                                       Millions of Seats   7    6.2
   Percent Change




                                                                                                  6
                     0%
                                                                                                  5
                    -10%                                                                          4
                                         -9%                                                                 2.8
                                                                                                  3                                       2.4   2.2
                    -20%
                                                                                                  2
                    -30%                                                                          1

                    -40%    -34%                                                                  0
                                                                                                       Netw ork      Regionals and        Low -Cost
                           0 to 249   250 to 499       500 to 999   1,000+
                                                                                                                        Others
                                               Miles                                                    August 2000 Seats          August 2007 Seats




                    DOMESTIC AND INTERNATIONAL AIR CARGO. The slow growth in the domestic
                    air cargo industry that started in mid-2005 continued into 2007. In comparison,
                    the pace of growth of U.S. international air cargo strengthened until the third
                    quarter of 2007. Domestic air cargo stagnated as customers moved some of their
                    shipping from air to less costly ground delivery networks. Revenue ton-miles
                    (RTMs) for domestic cargo were 15.7 billion for the 9 months that ended
                    in September 2007, down a slight 0.3 percent from the same period a year earlier.

                    The slight year-to-date downturn masked a 2.4 percent drop in the third quarter,
                    the first quarterly decline since third quarter 2004. At the same time, international
                    air cargo (to and from the U.S.) grew 2.5 percent to 29.5 billion for the 9 months
                    ended in September 2007, but also suffered a third quarter decline (-2.2 percent).




                    Exhibit A. Summary of Airline Industry Metrics
                                                                                                                                                   9

For the 9 months that ended in September of 2007, air cargo in the Latin America
region increased 10.3 percent over the similar period that ended in 2006 to 6.0
billion RTMs. The Atlantic region Figure 16: Domestic and International Air Cargo
experienced a 3.9 percent increase Traffic Quarterly Revenue Ton-Miles 1Qtr 2003 - 3 Qtr 2007 (BTS Data)
in air cargo moving to 19.6 billion   12

RTMs in the 9 months that ended
                                      10
in September of 2007 from the
year earlier. The Pacific area air     8

cargo grew 2.6 percent to 24.5




                                                       RTMs - billions
                                       6
billion RTMs and was the only
international area to experience a     4

decline in the third quarter of
                                       2
2007. [Figure 16]
                                                                         0
                                                                             1Q03   3Q03   1Q04   3Q04   1Q05   3Q05   1Q06   3Q06   1Q07   3Q07

                                                                                                     Domestic    International




LOW-COST CARRIERS CONTINUE TO GAIN MARKET SHARE. Low-cost carriers
continued to expand their share of domestic capacity (as measured by scheduled
seats). Between August 2000 and August 2007, low-cost carriers increased their
share of scheduled seats from 20 percent to 29 percent. Network carriers
(including their regional airline affiliates) reduced their share from 72 percent to
Figure 17: Domestic Market Share by Carrier
                                                        66 percent. Other carriers (Aloha
Group Airline Market Share of Scheduled Available Seats Airlines,   Hawaiian     Airlines,
August 2000, August 2006, and August 2007               Midwest Airlines, and intra-
   75%
            72%                                         Alaska carriers) reduced their
                              68%                66%
                                                        share from 8 percent to 5 percent.
   60%                                                  [Figure 17]
Percentage




             45%

                                     28%             29%
             30%
                      20%

             15%             8%
                                             4%                          5%

             0%
                   August 2000    August 2006     August 2007

                   Network        Low-Cost        Others




Exhibit A. Summary of Airline Industry Metrics
                                                                                                                                     10

    MARKET SHARE AND GROWTH OF LOW-COST CARRIERS. Southwest Airlines
    accounted for both the largest total number of scheduled seats (58 percent) among
    the low-cost carriers, and the largest total growth in low-cost service (seats) over
    the last seven years (38 percent). Together, low-cost carriers increased their
    capacity nearly 38 percent between 2000 and 2007. [Figures 18 and 19]

Figure 18: Share of Low-Cost Carrier Service                                Figure 19: Market Share of Low-Cost Carrier
Growth Airline Share of Growth by Scheduled Available                       Service Airline Share of Service by Scheduled Available Seats,
                                                                            August 2007 (FAA Data)
Seats, August 2000 to August 2007 (FAA Data)
                          Spirit 3%                                                                      Sun Country
                                                                                                             1%        America
      Frontier 10%                                                                                                     West 10%
                                                         Southw est                   Spirit 2%
                                                            38%
                                                                                Frontier 5%
                                                                             JetBlue 10%




                                                                                ATA 1%
   JetBlue 27%                                                                                                                    Southwest
                                                                                                  AirTran 12%                       58%
                             AirTran 22%




    MARKET SHARE BY AIRCRAFT TYPE. In August 2000, 10 percent of domestic
    scheduled flights were on regional jets. In August 2007, regional jets account for
    33 percent of all domestic scheduled flights. Use of large jets declined from
    56 percent of scheduled flights in August 2000 to 50 percent each of the last 2
    years. Since August 2000, non-jets (turboprop and piston engine aircraft) declined
    from 34 percent to 17 percent of scheduled flights. [Figure 20]

                             Figure 20: Market Share by Aircraft Type
                             Percent Share of Scheduled Flights by Type of Aircraft
                             August 2000, 2006, and 2007 (FAA Data)       Totals may not sum
                                                                          due to rounding
                                             60%          56%
                                                                              49%                  49%
                                             50%

                                             40%   34%
                                Percentage




                                                                         33%                  33%

                                             30%
                                                                      18%                17%
                                             20%
                                                      10%
                                             10%

                                             0%
                                                   August 2000        August 2006        August 2007
                                                      Non-Jet         Regional Jets         Large Jets




    Exhibit A. Summary of Airline Industry Metrics
                                                                                                                                         11



              AIRLINE FINANCES
     AIRLINE REVENUES AND EXPENSES. For the third quarter of 2007, operating
                                                                    revenues of the major passenger
Figure 21: Revenues vs. Expenses                                    carriers     were    $34.7    billion,
Major Passenger Carriers Operating Revenues and Operating
Expenses 3Qtr 2001 through 3Qtr 2007 (DOT Data)                          exceeding operating expenses of
  $40                                       3Q07
                                                                    $31.9  billion.    This produced an
  $35
                                          Revenues                  operating profit for the period of
                                         $34.7 billion
                                                                    nearly $2.9 billion. This marked the
  $30
                                                                    sixth consecutive quarterly operating
$ Billions




  $25                                                               profit for the group. Since a low
  $20                                                    3Q07       point in the fourth quarter of 2001,
                                                       Expenses
                                                      $31.9 billion
                                                                    operating expenses have steadily
  $15
                                                                    increased as airlines resumed service
  $10                                                               cut after September 11, 2001, and
             01

                    02

                    02

                    03

                    03

                    04

                                       04

                                       05

                                       05

                                       06

                                       06

                                       07

                                       07

                                                                    fuel costs escalated. [Figure 21]
                  1Q

                  3Q

                  1Q

                  3Q

                  1Q

                                     3Q

                                     1Q

                                     3Q

                                     1Q

                                     3Q

                                     1Q

                                     3Q
         3Q




                       Operating Revenues   Operating Expenses


                                                                 Figure 22: Selected Network and Low-Cost Carriers
                                                                 Operating Profit or Loss
              AIRLINE OPERATING PROFITS AND                      System Operations for Quarter Ending 9/30/07 (DOT Data)

              LOSSES. The third quarter of 2007 was                                        Millions
              the sixth consecutive quarter in which                -$50   $50    $150    $250    $350   $450    $550    $650

              major passenger airlines, as a group                                                                      $635    United
              reported an operating profit. Five of
              seven network carriers posted profits in                                                      $459                Northw est
              excess of $250 million; the remaining two
                                                                                                          $422                  Delta
              network carriers also posted substantial
              profits (US Airways posted a profit of                                             $264                           American
              $243 million and Alaska airlines posted a
                                                                                             $252                               Southw est
              profit of $112 million). United ($635.4
              million)    and     Northwest      ($459.3                                     $250                               Continental
              million) posted the largest profits for the
                                                                                            $243                                US Airw ays
              network carriers. Low-cost carriers
              posted a combined operating profit of                                $112                                         Alaska
              $357 million. [Figure 22]
                                                                                 $77                                            JetBlue

              (Note: Financial information for ATA                          $39                                                 AirTran
              Airlines was not available at the time this
              report was prepared).                                        $23                                                  Frontier

                                                                           $8                                                   Spirit

                                                                 -$40                                                           America West




              Exhibit A. Summary of Airline Industry Metrics
                                                                                                                          12

ACCUMULATED NET LOSSES AND PROFITS. The accumulation of net losses
experienced by the network carriers since 2001 began to turn in early 2006 with
further improvement in the first 9 months of 2007. Aided by continuing strong
demand, increasing fares and favorable bankruptcy-related accounting credits, the
network carriers as a group
posted net profits for the third Figure 23: Accumulated Net Losses and Gains
                                   1Qtr 2001 Cumulative Through 3Qtr 2007 (DOT Data)
quarter of 2007, only the third
time in 27 consecutive quarters.         $0
                                        -$5                                                 Low -Cost Carriers
Accumulated net losses for the        -$10
                                                                                             +1.8 billion (3Q07)

group narrowed to $37 billion,        -$15
an improvement over the low of        -$20                                                       Netw ork Carriers
                                                                                                -$36 billion (3Q07)




                                                                            $ Billions
                                      -$25
$58 billion at the end of 2005.       -$30
Low-cost carriers as a group          -$35
posted $1.8 billion in net            -$40
                                      -$45
income since the beginning of                       Netw ork Carriers -$58 billion (4Q05)
                                      -$50
2001, mostly due to a $1.4            -$55
billion favorable accounting          -$60
                                            1 Q2 Q3YE01
                                                    Q4 Q1 Q2 Q3 YE02
                                                                Q4 Q1 Q2 Q3YE03
                                                                            Q4 Q1 Q2 Q3 Q4 Q1 Q2 Q3 Q4YE05
                                                                                        YE04                         QYE06
                                                                                                         Q1 Q2 Q3 Q4 1Q07
                                                                                                                       2Q07
                                                                                                                          3Q07
credit posted by ATA Airlines                01 01 01 01 02 02 02 02 03 23
                                                             Network       03 03 04 04 04
                                                                        Carriers          04 05 05 05Carriers
                                                                                        Low-Cost        05 06 06 06 06

as it exited bankruptcy in the
first quarter of 2006.
[Figure 23]

COST PER AVAILABLE SEAT-MILE (CASM). Despite increasing fuel expenses,
network carriers continued to keep a cap on domestic operating expenses, showing
only a 0.5 percent increase in the cost per available seat-mile (CASM) between the
third quarter of 2001 (11.2 cents) to the third quarter of 2007 (11.7 cents). After
successfully managing to reduce the cost differential with the low-cost carriers
Figure 24: Cost Per Available Seat Mile (CASM)                      from a high of 4.0 cents in the first
1Qtr 2001 through 3Qtr 2007 (DOT Domestic Quarterly Data less
transport-related expense)
                                                                    quarter of 2003 to 2.1 cents in the
    14.00                                         3 Q07 11.8¢
                                                                    third quarter of 2006, the network
                3Q01 11.7¢
    12.00
                                                                    airlines experienced a widening of
                                                                    the gap in the third quarter of 2007
    10.00
                                                                    to     2.6     cents.      Low-cost
     8.00
                                                                    carriers experienced a 17.7 percent
Cents




     6.00
                3Q01 7.8¢                                3 Q07 9.2¢
                                                                    increase in CASM since 2001,
     4.00                                                           rising from 8 cents in the third
     2.00                                                           quarter of 2001 to 9.2 cents in the
     0.00                                                           same quarter of 2007. [Figure 24]
         01

               01

                     02

                           02

                                  03

                                        03

                                              04

                                                    04

                                                          05

                                                                05

                                                                      06

                                                                            06

                                                                                          07

                                                                                                07
        1Q

              3Q

                    1Q

                          3Q

                                1Q

                                       3Q

                                             1Q

                                                   3Q

                                                         1Q

                                                               3Q

                                                                     1Q

                                                                           3Q

                                                                                         1Q

                                                                                               3Q




                               Low -cost Carriers         Netw ork Carriers




Exhibit A. Summary of Airline Industry Metrics
                                                                                                                                                                                               13

DOMESTIC YIELD. Domestic yield of 12.9 cents per passenger mile for the seven
major airlines in October 2007 was above the 12.5 cents per passenger mile posted
in October 2006, but yields were still below 2000 levels. For the first 10 months
of 2006 and 2007, yields have Figure 25: Domestic Yield for Seven Major Airlines
averaged 12.8 and 12.9 cents per Percent Change in Airline Yield from 2000 (ATA Data)
passenger mile, respectively.          5%
Yields for the same period in
                                       0%
2000 were 14.5 cents per
                                      -5%




                                                         Percentage
passenger mile. [Figure 25]
                                                                      -10%

                                                                      -15%
                                                                                                                                                                        Oct-07
                                                                      -20%
                                                                                                                                                                         -14%

SHORT-HAUL, MEDIUM-HAUL                          -25%

AND LONG-HAUL FARES.                             -30%




                                                                                       Apr-02




                                                                                                         Apr-03




                                                                                                                           Apr-04




                                                                                                                                             Apr-05




                                                                                                                                                               Apr-06




                                                                                                                                                                                    Apr-07
                                                                             Oct-01




                                                                                                Oct-02




                                                                                                                  Oct-03




                                                                                                                                    Oct-04




                                                                                                                                                      Oct-05




                                                                                                                                                                           Oct-06




                                                                                                                                                                                             Oct-07
Despite several attempts by the
airlines to increase fares
between the middle of 2006
and the middle of 2007, few were ultimately successful. As a result, average
domestic fares paid by passengers in short-haul, medium-haul, and long-haul
markets declined in the second quarter of 2007 (down 8 percent, 7 percent, and 3
percent, respectively), compared to the same period in 2006. Over the same
period, average fares in medium-haul markets increased a modest 1.6 percent.
Over the longer term, intense competition and industry restructuring drove fares
down below the levels paid in 2000, even though fuel costs soared. In the second
                                                             quarter of 2007, fares in long-
Figure 26: Average Short-, Medium-, and Long-                haul and medium-haul markets
Haul Fares 2Qtr 2000 - 2Qtr 2007 Fares for 300 mi            ($267          and         $167,
1,000 mi, and 1500 mi average distances (DOT Data)
                                                             respectively) were lower than
   $250                                                 $207
                                                             2000 levels. Only in the short-
   $200 $227                                                 haul market was the second
                                                             quarter 2007 average fare
Average Fare




   $150
           $180                                         $167 relatively unchanged from 2000
   $100                                                      ($121 vs. $120).        However,
           $120                                      $121    short-haul fares we re down from
     $50
                                                             the $131 paid, during the same
      $0                                                     quarter of 2006. [Chart 26]
               2000   2001    2002    2003   2004    2005              2006           2007

               Short-Haul Fares      Medium-Haul Fares                Long-Haul Fares




Exhibit A. Summary of Airline Industry Metrics
                                                                                                                                   14

                BUSINESS AND LEISURE TRAVEL. After a generally continuous decline over the
                last seven years, the use of business fares increased slightly since the second
                quarter of 2006. From a high of 21 Figure 27: Use of Business Fares Percent of All
                percent in early 2000, use of the Passengers Using Business Fares 1Qtr 2000 through 2Qtr 2007
                                                     (BTS Data)
                unrestricted fares, those usually        25%
                booked by business travelers, fell              21%
                to a low of 12 percent in 2002, rose     20%
                                                                                            14%
                slightly to 14 percent in 2003 and
                fell again to the lowest usage rate




                                                                  Percentage
                                                         15%

                (10 percent), during the winter of
                2005-2006. Thereafter, the percent       10%

                                                                                                    11%
                of passengers traveling on business
                                                          5%
                fares rose slightly to 11 percent.
                [Figure 27]                               0%




                                                                                 00

                                                                                 00

                                                                                 01

                                                                                 01

                                                                                 02

                                                                                 02

                                                                                 03

                                                                                 03
                                                                                 04

                                                                                 04

                                                                                 05

                                                                                 05

                                                                                 06

                                                                                 06

                                                                                 07
                                                                               1Q

                                                                               3Q

                                                                               1Q

                                                                               3Q

                                                                               1Q

                                                                               3Q
                                                                               1Q

                                                                               3Q
                                                                               1Q

                                                                               3Q

                                                                               1Q

                                                                               3Q

                                                                               1Q

                                                                               3Q

                                                                               1Q
                AIRLINE LOAD FACTORS. Load
                factor is the average percent of
                available seats filled by revenue passengers. For the third quarter of 2007, the
                load factor for the major passenger airlines was 83 percent, about two percentage
                points higher than the third quarter 2006 load factor of 81.1 percent. The
                breakeven load factor or the average percentage of paying passengers needed to
                cover airline costs, dipped slightly from 78.9 percent in the third quarter of 2006 to
                77.8 percent in the third quarter of 2007. [Figure 28]

 Figure 28: Passenger Load Factors                                             Figure 29: Actual Airline Load Factors
 Actual vs. Breakeven Percentages 3Qtr 2001 through                            Actual Percentages for 3rd Qtr 2007 (DOT Data)
 3Qtr 2007 (DOT Data)
                                                                                            100%
             100%                               3Q07 Actual 83%

                                                                                            80%

             80%
                                                                               Percentage




                                                                                            60%
Percentage




                                           3Q07 Breakeven 78%                               40%
             60%

                                                                                            20%
             40%
                                                                                             0%
                                                                                              Am ys




                                                                                                                                 t
                                                                                                         n
                                                                                                         t




                                                                                                                                 l

                                                                                                                                d

                                                                                                                                t
                                                                                                       ka


                                                                                                        e




                                                                                                                     ica a
                                                                                                                              es

                                                                                                                              ta
                                                                                                       es




                                                                                                                             es
                                                                                                      lu




                                                                                                     ica




                                                                                                                             te
                                                                                                                              t




             20%
                                                                                                      a




                                                                                                                           el




                                                                                                                          en
                                                                                                    as




                                                                                                                          W
                                                                                                  hw




                                                                                                   tB

                                                                                                  rw




                                                                                                                          w
                                                                                                                          ni
                                                                                                                 Am D
                                                                                                 er




                                                                                                                        th
                                                                                                                       tin
                                                                                                Al




                                                                                                                        U
                                                                                               Je

                                                                                               Ai
                                                                                               ut




                                                                                                                     or
                                                                                                                    on
                01

                02

                02

                03

                03

                04

                04

                05

                05

                06

                06

                07

                07




                                                                                            So




                                                                                             S




                                                                                                                   er




                                                                                                                   N
                                                                                            U




                                                                                                                  C
              3Q

              1Q

              3Q

              1Q

              3Q

              1Q

              3Q

              1Q

              3Q

              1Q

              3Q

              1Q

              3Q




                           Actual          Breakeven                                                         Actual Load Factors



                INDIVIDUAL CARRIERS LOAD FACTORS. For the third quarter of 2007, ten major
                carriers averaged a load factor of 83 percent. Continental and United (84.7
                percent each) along with Northwest (87.2 percent) had the highest load factors of
                the ten airlines examined. The average load factor for the ten airlines for the third



                Exhibit A. Summary of Airline Industry Metrics
                                                                                                                            15

                    quarter of 2006 (80.9 percent) was approximately two percentage points lower
                    than the third quarter of 2007 (83 percent). [Figure 29]

                    DEBT-TO-INVESTMENT RATIO. The debt-to-investment ratio for the major
                    passenger airlines was 61 percent for the third quarter of 2007 versus 105.5
                    percent for the third quarter of 2006, a decrease of 43 percent. The debt-to-
                    investment ratio for major passenger airlines increased steadily over the past 5-6
                    years, reaching a peak of 206.8 percent, in the fourth quarter of 2005. However,
                    after the fourth quarter of 2005, the ratio dropped significantly and held steady at
                    around 105 percent, until dropping to a low of 61 percent, in the third quarter of
                    2007. Three airlines had debt-to-investment ratios that were worse than the group
                    average: United, (78.2 percent) Continental, (80.1 percent) and American (104
                    percent). [Figures 30 and 31]

Figure 30: Debt-to-Investment Ratio All Major                   Figure 31: Debt-to-Investment Ratio by Airline
Airlines 3Qtr 2001 through 3rd Qtr 2007 (DOT Data)              Quarter Ending 9/30/07 (DOT data)
                                                                              120%
                                                                                                                                  104%
                                   4Q05 207%
             200%                                                             100%
                                                                                                                            80%
                                                                                                                      78%
                                                                               80%
                                                                Percentage




                                                                                                                59%
Percentage




             150%                                                              60%
                                                                                                  44% 46% 48%
                                                                               40%
                                                                                            20%
             100%                                                              20%
                                                                                       2%
                                               3Q07 61%
                                                                                 0%




                                                                                                                              d
                                                                                              s




                                                                                                                              l
                                                                                                             a
                                                                                                             a
                                                                                              t




                                                                                                                            an
                                                                                                             t
                                                                                             t




                                                                                                                            ta
                                                                                           es




             50%
                                                                                                           es
                                                                                           ay
                                                                                           es




                                                                                                          sk




                                                                                                          sk


                                                                                                                           te

                                                                                                                        en


                                                                                                                         ic
                                                                                                                        ni
                                                                                          w
                                                                                         W




                                                                                                         w
                                                                                                        la




                                                                                                        la
                                                                                        hw




                                                                                                                       er
                                                                                                      th




                                                                                                                       U

                                                                                                                     tin
                                                                                       ir


                                                                                                       A




                                                                                                       A
                                                                                   a




                                                                                                                    m
                                                                                      A
                                                                                     ut
                04




                06

                07

                07
                01

                02

                02

                03

                03

                04




                05

                05

                06




                                                                                                    or
                                                                                 ic




                                                                                                                  on


                                                                                                                   A
                                                                                    S
                                                                                   So
                                                                               er
              3Q

              1Q

              3Q

              1Q

              3Q

              1Q

              3Q

              1Q

              3Q

              1Q

              3Q

              1Q

              3Q




                                                                                                   N
                                                                                   U




                                                                                                                 C
                                                                              m
                                                                             A




                    FUEL COSTS. Average annual fuel costs for domestic airlines rose to $1.97 per
                    gallon through the first 9 months of 2007. The peak price per gallon came in
                    September 2007, when prices reached $2.11 per gallon. This represents a
                    270 percent increase in price per gallon since December 2001. According to the
                    ATA quarterly airline cost index, fuel has superseded labor as the industry's top
                    cost and now constitutes 20 percent to 30 percent of industry operating expenses.




                    Exhibit A. Summary of Airline Industry Metrics
                                                                                                                                                         16

While prices rose steadily from 2001 to present, a wide range of issues outside the
control of airlines, such as geopolitical insecurity, and a lack of refining capacity
affect fuel prices, making it
                                        Figure 32: Cost Per Gallon Domestic Jet Fuel (ATA
difficult to predict how prices will Data)
move in the future. [Figure 32]            $2.20
                                                                                                   $2.00

                                                                                                   $1.80




                                                                     Average cost $ per gallon
                                                                                                   $1.60

AIRPORT AND AIRWAY TRUST                  $1.40                         Sept
                                                                         '07
FUND. The Airport and Airway              $1.20
                                                                       $2.11
                                          $1.00
Trust Fund, which is funded               $0.80
primarily by a set of excise taxes on     $0.60
commercial airline tickets, pays          $0.40
                                                Dec '01
most of the Federal Aviation              $0.20 $0..57
                                          $0.00
Administration’s (FAA) expenses.




                                                                                                  Se -06




                                                                                                  Se -07
                                                                                                  Se -02




                                                                                                  Se -03




                                                                                                  Se -04




                                                                                                  Se -05




                                                                                                  M -0 7
                                                                                                  M -0 5




                                                                                                  M -0 6
                                                                                                  M -0 2




                                                                                                  M -0 3




                                                                                                  M -0 4




                                                                                                      07
                                                                                                  Ja 04




                                                                                                  Ja 05




                                                                                                  Ja 06
                                                                                                  Ja 01




                                                                                                  Ja 02




                                                                                                  Ja 03
 Trust Fund revenues increased




                                                                                                    p-
                                                                                                    p-




                                                                                                    p-




                                                                                                    p-
                                                                                                    p-




                                                                                                    p-




                                                                                                    p-




                                                                                                    n
                                                                                                    n




                                                                                                    n
                                                                                                    n




                                                                                                    n




                                                                                                    n




                                                                                                   ay




                                                                                                   ay
                                                                                                   ay




                                                                                                   ay




                                                                                                   ay




                                                                                                   ay
                                                                                                  Se
steadily over the last several years
after declining between Fiscal Year (FY) 2001 and FY 2003. At the end of FY
2007 aviation excise taxes supporting FAA’s programs expired. FAA programs
are presently operating under a short-term extension. [Figure 33]



                         Figure 33: Airport & Airway Trust Fund
                         FAA Budget and Funding FY 2002-FY 2008 (FAA Data)
                                $16.0
                                                                                                                    $14.3       $14.2           $14.1
                                                      $13.6       $13.9                                 $13.9
                                         $13.3
                                $14.0                                                                                                   $12.6
                                                                                                                            $11.9
                                $12.0                                                             $10.7        $11.1
                                        $9.9                  $9.7
                                                   $9.3
                                $10.0
                   $ Billions




                                 $8.0

                                 $6.0
                                               $4.8
                                 $4.0                      $3.9
                                                                                                                                                  $3.1
                                                                                                 $2.4
                                 $2.0                                                                        $1.9        $1.8        $2.0

                                 $0.0
                                          02          03          04                                    05          06          07          08 est
                                               Trust Fund Revenues                                           FAA Budget 08 Request
                                               Uncommitted Balance




Exhibit A. Summary of Airline Industry Metrics
                                                                                                   17


                                   AIR SERVICE AT SMALL AIRPORTS
CHANGES IN AIR SERVICE. Following the economic downturn in late 2000 and
the after-effect of September 11,
2001, service (as measured by Figure        34: Departures at Hub Types
                                   Percent Change in Scheduled Domestic Flights August 2001- August
scheduled flights and seats) 2007 Compared to August 2000 (FAA Data)
declined at airports of all sizes.             5%
                                                    2001  2002   2003   2004    2005   2006      2007
Service began to return in 2003                0%
and scheduled flights at small-
                                              -5%
hub, medium-hub, and large-hub




                                                                    Percent Change
                                             -10%
airports increased. The only                                                     Nonhub airports

category of airports where                   -15%
                                                                                 August '07 vs '00 -27%

service has not rebounded is at              -20%
non-hub airports, which are the
                                             -25%
Nation's smallest commercial
airports. Scheduled flights at               -30%

non-hub airports in August 2007                  Non-hub       Small        Medium           Large

decreased 27 percent since 2000.
[Figure 34]


ACCESS TO LARGE AIRPORTS. The number of seats scheduled into large hub
airports from markets of all sizes have declined since 2000. The decreases
experienced by the various hub sizes ranged from 6 percent to 10 percent. Flights
into large airports from non-hubs were down 21 percent between August 2000 and
 Figure 35: Access to Large Airports                               August 2007, although seats were
 Percent Change in Number of Scheduled Flights and Available Seats
 August 2007 vs. August 2000
                                                                   down only 8 percent, as airlines
       5%                    3%
                                                                   substituted larger aircraft for
                                            0%
       0%
                                                                   smaller aircraft. The number of
                                                                   scheduled flights to large hubs
      -5%                                                          from other large hubs decreased
 Percent Change




                                -6%
     -10%
               -6%
                                                -8%            -8%
                                                                   by 6 percent from August 2000 to
                   -10%                                            August 2007. In contrast, flights
     -15%                                                          from medium hubs into large
     -20%
                                                                   airports increased 3 percent and
                                                          -21%     flights from small hubs to large
     -25%                                                          hubs changed little. [Figure 35]
                  Large to Large Medium to Large Small to Large   Non-Hub to
                                                                    Large
                                     Flights     Seats




Exhibit A. Summary of Airline Industry Metrics
                                                                                                                                18

NON-HUB AIRPORT SERVICE LOSSES BY REGION. In August 2007, scheduled
seats at non-hub airports in the Midwest and Northwest regions were lower by
28 percent and 26 percent, respectively, compared to August 2000. Over the same
time, scheduled seats declined by 17 percent in the South and 12 percent in the
West. However, scheduled seats in all four regions have increased between
August 2006 and August 2007. [Figure 36]

                 Figure 36: Regional Differences in Service at Non-
                 Hubs Percent Change in Available Seats at Non-Hub Airports
                 August 2007 vs. August 2000 (FAA Data)

                                                                                   Midwest
                                                 West                               -28%
                                                 -12%



                                                                                                 Northeast
                                                                                                   -26%



                                                                                             South
                                                                                             -17%



                         Note: Excludes U.S.                                 National Average -19%
                         Possessions and Territories




ESSENTIAL AIR SERVICE. In recent years, a growing number of communities
have received subsidies under the Essential Air Service (EAS) program. EAS
provided funds for subsidies to air carriers to serve 145 communities in FY 2007,
up from 115 communities in FY 2001. Similarly, funding has increased, from
$50 million in FY 2001 to $109.4 million in FY 2007. For FY 2008, the
Administration requested $50 million for the program. [Figure 37]

                 Figure 37: Essential Air Service
                 Funding and Subsidized Communities FY 2001 - FY 2008
                 (DOT Data)
                                                $140                                                    180
                                                                                                        160
                                                $120
                                                                                                        140
                                                                                                              EAS Communities




                                                $100
                  Appropriations




                                                                                                        120
                                   (Millions)




                                                $80                                                     100

                                                $60                                                     80
                                                                                                ?
                                                                                                        60
                                                $40
                                                                                                        40
                                                $20
                                                                                                        20
                                                 $0                                                     0
                                                        FY01 FY02 FY03 FY04 FY05 FY06 FY07 FY08*
                 *President's proposed FY '08                                  Appropriations
                 budget $50 million                                            Subsidized Communities




Exhibit A. Summary of Airline Industry Metrics
                                                                                                                   19


EXHIBIT B. SCOPE AND METHODOLOGY

Data represented graphically in the report were collected from the following
primary sources: the Air Transport Association (ATA), the Federal Aviation
Administration (FAA), the Bureau of Transportation Statistics (BTS), and the
Office of Aviation Analyses (OAA). The ATA is a trade association of U.S.
certificated air carriers. FAA, BTS, and OAA are organizations within the
Department of Transportation. These sources were used to perform the analyses
detailed below.

We note that we did not systematically audit or validate the data contained in any
of the databases. However, we conducted trend analyses and sporadic checks of
the data to assess reasonableness and comprehensiveness. When our judgmental
sampling identified anomalies or apparent limitations in the data, we held
discussions with managers responsible for maintaining the databases to understand
and attempt to resolve the inconsistencies. Consequently, we did not perform
sufficient tests to draw conclusions or form an opinion on the completeness or
accuracy of the data sources.

We met periodically with staff from ATA, FAA, BTS, and OAA to discuss data
issues and obtain feedback on modifications we made to existing data in order to
more accurately represent industry trends. We used a definition of a regional jet
based on size, operational, and ownership criteria that differ from those used by
other industry and government entities. We sought feedback on the definition and
adjusted data sets to reflect our revised definition. In addition, we classified our
set of low-cost carriers to include America West Airlines, whose costs per
available seat mile are consistent with other low-cost carriers. In some of our
prior reports on industry conditions, we included America West Airlines as a
network carrier.

A.       Analyses Performed With ATA Data

Financial and statistical analyses of history, trends, status, and performance of fuel
expenses and unit revenues, utilized financial, traffic, and operational statistics
obtained from ATA sources.

     1. ATA Monthly Passenger Yield Report. A collection of current and historic
     airline yield statistics (passenger revenue per revenue passenger-mile). Scope:
     selected member airlines of the ATA, 2000 through October 2007. 6

 6
     Data for “Domestic Yield for Seven Major Airlines” (Figure 25) includes the following major network air carriers:
     Alaska Airlines, American Airlines, Continental Airlines, Delta Airlines, Northwest Airlines, United Airlines, and
     US Airways (includes America West).


Exhibit B. Scope and Methodology
                                                                                                              20


     2. ATA Monthly Fuel Report. A publication of monthly airline fuel
     consumption and cost data collected and reported by BTS. Scope: all U.S.
     certificated airlines required to report fuel cost and consumption reports (DOT
     Form 41, Schedule P-12), 2001 through September 2007. 7

B.       Analyses Performed With BTS Data

Financial and statistical analyses of history, trends, status and performance of
financial condition, net profits and losses, debt and investment, load factors, and
business and leisure travel characteristics, utilized financial, traffic, operational
statistics, and passenger ticket survey information obtained from BTS sources.

     1. Air Carrier Financial Statistics. A compilation of financial reports
        submitted by air carriers as required under Title 14 Code of Federal
        Regulations (CFR) Part 241 (Form 41) and by hardcopy in the public
        reference room of the Office of Airline Information. Scope: all certificated
        U.S. air carriers, 2001 through the quarter ended September 30, 2007.

     2. Air Carrier Traffic Statistics. A compilation of traffic and capacity reports
        submitted by air carriers as required under 14 CFR Part 241 (Form 41).
        Scope: all certificated U.S. air carriers (passenger and cargo), commuter air
        carriers, and foreign air carriers operating to and from the United States,
        2000 through September 2007.

     3. Origin and Destination Survey of Passenger Travel (O&D Survey). A
        compilation of surveyed ticket information submitted quarterly as required
        under 14 CFR Part 241 (Form 41). Scope: 10 percent sample of tickets
        used by passengers, 2000 through the second quarter 2007.

C.       Analyses Performed With DOT-OAA Data

Financial and statistical analyses of history, trends, status and performance of
airline revenues, expenses, profits, traffic, capacity and the Essential Air Service
Program utilized financial, traffic and operational statistics obtained from DOT
sources.

     1. Airlines Quarterly Financial Review. A quarterly report analyzing the
        financial and operating performance and condition of the major airlines in
        the U.S. prepared using financial and traffic statistics reported to BTS by

 7
     Data for “Cost per Gallon Domestic Jet Fuel” (Figure 32) include all major, national, and large regional U.S.
     airlines that report to DOT.


Exhibit B. Scope and Methodology
                                                                                 21

        the airlines. Scope: 18 major air carriers (18 passenger and 2 all-cargo
        carriers), 2001 through the third quarter 2007.

     2. Essential Air Service Program (EAS).    Information on EAS budgets and
        number of communities served was supplied to the OIG by EAS program
        administrators. Scope: budget and program activity for Fiscal Years 2001
        through 2007 as well as the Administration’s budget proposal for Fiscal
        Year 2008 and figures for full House and Senate committee appropriations
        for EAS.

     3. Domestic Airline Fares Consumer Report. Table 6 of this quarterly report
        supplies the average air fare paid by passengers traveling in distinct
        airport-pair markets with an average of 10 or more daily passengers. This
        report was prepared using the DOT domestic edition of the Origin and
        Destination Survey of Passenger Travel (O&D Survey). Scope: A 10
        percent sample of tickets of passengers traveling on domestic flights within
        the 48 states, quarterly from 2000 through the second quarter 2007.

D.      Analyses Performed With FAA Data

Air Traffic Control (ATC) delay and operational statistics as well as airline flight
schedule data obtained from FAA sources were used in statistical analyses of
history, trends, status and performance of air traffic control management and
delays; airline scheduled capacity, operations and market share; aircraft type
usage; and the Aviation Airport and Airway Trust Fund.

     1. Flight Schedule Data System (FSDS). A database of published airline flight
        schedules. Scope: nationwide, 2000 through August 2007.

     2. Aviation System Performance Metrics (ASPM). A database of FAA air
        traffic control performance measures including delays, cancellations,
        operations, and causes for delays. Scope: 55 major airports across the
        country and all air route traffic control centers, 2000 through September
        2007.

     3. Operations Net (OPSNET) – Center. A database of air route traffic control
        center aircraft movement operations handled by the various air route traffic
        control centers. Scope: 22 air route traffic control centers, 2000 through
        September 2007.

     4. Aviation Airport and Airway Trust Fund The OIG obtained actual and
        estimated revenues for the Trust Fund from the FAA. Scope: actual
        revenues and uncommitted Trust Fund balances for Fiscal Years 2001


Exhibit B. Scope and Methodology
                                                                                  22

       through and 2006; estimates of revenue and uncommitted Trust Fund
       balances for Fiscal Year 2006 and 2007.

Terms and Definitions for the Current Report

Business Travel – Business travel is measured by the percent of ticket coupons in
the Origin and Destination Survey of Passenger Travel with fare codes that are
typically used in business travel compared to all ticket coupons used. Fare codes
typically used for business travel include restricted and unrestricted first and
business class travel and unrestricted coach class travel. The count of business
fare code ticket coupons in the O&D Survey excludes restricted “first class” fare
coded ticket coupons from the business category for carriers with single class
service.

Hub Airport – A ranking designation of U.S. airports by the FAA based upon the
airport’s percentage share of total passenger enplanements at all U.S. airports.
The FAA categorizes airports based on the following criteria:

       Percentage of Annual Passenger Enplanements in the U.S. by Hub Type:

       Large Hub            1.0% or more of total enplanements
       Medium Hub           at least 0.25%, but less than 1%
       Small Hub            at least 0.05%, but less than 0.25%
       Non-hub              at least 2,500, but less than 0.05%

Large Jet – For the purposes of the Aviation Industry Performance report, large
jets are all commercially operated jet transport aircraft other than those defined as
regional jets.

Low-cost Carrier – For the purposes of the Aviation Industry Performance report,
the category low-cost carrier includes: AirTran, America West, American Trans
Air (ATA), Frontier Airlines, JetBlue Airways, National Airlines, Pan American
Airways, Southwest Airlines, Spirit Airlines, Sun Country, and Vanguard Airlines.
However, Vanguard Airlines and National Airlines ceased operations in July 2002
and November 2002, respectively; Pan American ceased operations in 1998.

Major passenger airline – Except where noted, for the Aviation Industry
Performance report, the category major passenger airline includes: AirTran
Airways, Alaska Airlines, America West Airlines, American Airlines, American
Eagle Airlines, ATA, Inc., Atlantic Southeast Airlines, Comair, Continental
Airlines, Delta Air Lines, ExpressJet, JetBlue, Northwest Airlines, SkyWest,
Southwest Airlines, United Airlines, and US Airways. AirTran, Atlantic
Southeast, and Skywest were added to the list in the first quarter of 2006.


Exhibit B. Scope and Methodology
                                                                                 23


Network airline – For the purposes of the Aviation Industry Performance report,
the category network airline includes: Alaska Airlines, American Airlines,
Continental Airlines, Delta Air Lines, Northwest Airlines, United Airlines, and US
Airways. For the purposes of consistency over time, the financial and operating
statistics for the former Trans World Airlines have been merged with those of the
acquirer American Airlines.

Other airlines – Except where noted, for the purposes of Aviation Industry
Performance report, the category other airlines includes all scheduled U.S. airlines
not included in the network and low-cost categories (mostly smaller scheduled
regional, commuter, and national airlines which are affiliated with the major
network carriers).

Regional carrier – An entity whose fleet is principally comprised of aircraft
configured with fewer than 100 seats, operated within a limited geographic scope
(may have multiple regions, though not interlinked across the country under its
own single brand), principally serving hub-and-spoke networks, and conducting
most of its operations under the affiliation(s) of larger branded airlines (network
carriers). For the purposes of this report, we also consider internal mainline
operating units that are principally involved in regional operations as regional
carriers.

Regional Jet (RJ) – All turbofan jet-powered aircraft configured to seat 77 or
fewer passengers, and operated by either a regional or network carrier. All
turbofan jet-powered aircraft configured to seat between 78 and 100 passengers
and operated by regional carriers.

Regions – For purposes of the airline performance report, the Nation was
delineated into four regions composed of states and the District of Columbia:
Northeast: Maine, New Hampshire, Vermont, Massachusetts, Rhode Island,
Connecticut, New York, New Jersey, and Pennsylvania; Midwest: Ohio, Indiana,
Illinois, Michigan, Wisconsin, Minnesota, Iowa, Missouri, North Dakota, South
Dakota, Nebraska, and Kansas; South Region: Delaware, Maryland, Virginia,
West Virginia, North Carolina, South Carolina, Georgia, Florida, Kentucky,
Tennessee, Alabama, Mississippi, Arkansas, Louisiana, Oklahoma, Texas and
District of Columbia; West: Montana, Idaho, Wyoming, Colorado, New Mexico,
Arizona, Utah, Nevada, Washington, Oregon, California, Alaska, and Hawaii.




Exhibit B. Scope and Methodology
                                                                        24



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS
REPORT
The following individuals contributed to this report.


   Name                                        Title



   Mitch Behm                                  Program Director

   Marshall Jackson                            Project Manager

   Ralph W. Morris                             Economist

   Andrew Sourlis                              Analyst

   Stephen G. Smith                            Transportation Analyst

   Darlisa Crawford                            Writer-Editor

   Andrea Nossaman                             Writer-Editor




Exhibit C. Major Contributors to This Report
The following pages contain textual versions of the graphs and charts contained in this
document. These pages were not a part of the original document but have been added
here to accommodate assistive technology.
                                 Aviation Industry Performance
                     A Review of Summer 2007 Aviation System Performance
                              Section 508 Compliant Presentation

   Figure 1: Actual Flight Operations
   Percent Change from 2000 in Air Route Traffic Control Operations (FAA Data)

              2001         2002                                               Percent
                                        2003         2004         2005                     Percent
             Percent      Percent                                              2006
 Month      Change in    Change in
                                       Percent      Percent      Percent
                                                                             Change in
                                                                                            2007
                                      Change in    Change in    Change in                 Change in
            Operations   Operations                                          Operations
                                      Operations   Operations   Operations                Operations
January         5%          -3%           0%          2%           5%            3%           5%
March          -4%          -8%         -10%          0%           0%           -4%          -3%
March          -2%          -7%          -7%          1%           4%            0%           1%
April           0%          -3%          -5%           3%           4%           1%           2%
May            -1%          -4%          -7%          -1%           3%           0%           1%
June           -3%          -4%          -6%           1%           4%           0%           2%
July            1%          -1%          -2%           3%           4%           1%           3%
August          0%          -4%          -6%           1%           2%           0%           1%
September     -16%          -5%          -5%           0%           2%          -1%          -1%
October        -8%          -4%          -3%           1%          -2%          -1%
November       -8%          -7%          -4%           2%           0%           1%
December       -5%          -1%           3%           7%           5%           6%
   Note: September 2001 Actual Flight Operations Down 16 Percent
   Note: All percentages are rounded


   Figure 2: Number of Flights with Delayed Arrivals
   (FAA Data-All Airlines, 55 Major Airports)
                   2000            2006         2007
      Month       Arrival         Arrival      Arrival
                  Delays          Delays       Delays
   January        158,982         152,330      183,227
   February       152,326         150,099      192,067
   March          154,507         168,493      197,887
   April          154,472         149,272      169,517
                            152,815      162,228
MAY
               160,781
June           200,301      182,383      210,521
July           183,866      181,964      209,101
August         195,624      174,675      210,006
September      150,585      160,421      129,929
October        167,005      186,872
November       179,700      165,951
December       235,929      196,409
Note: Arrival delays for summer months 2007 are up 15% versus summer months in
2006.


Figure 3: Cancellations
(FAA Data-All major airlines, 55 major airports)
                 2000              2006                2007
   Month
              Cancellations    Cancellations       Cancellations
                                  12,219              16,105
JANUARY
                  21,170
February          13,074           13,371             26,768
March              8,859            9,424             18,697
April             10,050            7,804             12,830
May               14,474           8,922              8,473
June              16,214           12,709             18,959
July              13,458           13,151             15,152
August            13,284           11,536             13,799
September         16,507           11,694             8,151
October           17,943           12,765
November          17,511           12,429
December          42,675           19,507
Note: Cancellations for summer months 2007 are up 28% versus summer months in
2006.
Note: Cancellations for February and March 2007 are up 100% and 98% versus
February and March 2006.


Figure 4: Percent of Flights Arriving Late
(FAA All major airlines, 55 major airports)
   Month         2000         2006           2007
                              23%            27%
JANUARY
                 25%
February         24%          25%            31%
March            22%          24%            28%
April            23%          22%            25%
May              23%          22%            23%
June             30%          27%            31%
July             27%          26%            30%
August           28%          24%            28%
September        23%          24%            20%
October          24%          27%
November         27%          25%
December         36%          29%
Note: Percent of Flights Arriving Late during summer months 2007 are up 14%
versus summer months 2006.
Note: All Percentages are rounded


Figure 5: Length of Arrival Delays
(FAA Data All airlines, 55 major airports)
                   2000           2006             2007
   Month
               (In Minutes)   (In Minutes)     (In Minutes)
                                   52               52
JANUARY
                    49
February            49               50             56
March               48               51             57
April               49               50             54
May                 53               51             52
June                55               58             62
July                54               58             59
August              52               53             58
September           49               54             51
October             48               54
November            48               52
December            55               55
Note: Arrivals Delayed 60 Minutes during summer months 2007 versus 56 minutes
during summer months 2006.
Note: All numbers are rounded
Figure 6: Most Significant Changes in Arrival Delays by Airport
Percent Change in Arrival Delays for Summer 2007 versus 2006 (FAA Data)

      Airport          Percent Change
Dallas/Ft. Worth             57%
Ft. Lauderdale              46%
Dallas Love                  43%
Newark                       -3%
San Juan                     -5%
Louisville                  -10%

Figure 7: Passenger Enplanements 2000-2006
Scheduled Service System-Wide (DOT Data)
             Number of
   Year     Enplanements
              (millions)
   2000         698.9
   2001         652.9
   2002         641.0
   2003         647.5
   2004         703.7
   2005         738.6
   2006         744.6


Figure 8: Domestic Revenue Passenger-Miles and Available Seat-Miles from 2000-
2007 (BTS Data)
                         Traffic (Revenue
                                                Capacity (Available
    Quarter Year        Passenger-Miles) in
                                               Seat-Miles) in billions
                              billions
First Quarter 2000              123                     184
Second Quarter 2000             139                     186
Third Quarter 2000              140                     193
Fourth Quarter 2000             129                     189
First Quarter 2001              125                     187
Second Quarter 2001             138                     193
Third Quarter 2001              131                     188
Fourth Quarter 2001             108                     165
First Quarter 2002              114                     168
Second Quarter 2002                129                       180
Third Quarter 2002                 134                       188
Fourth Quarter 2002                122                       178
First Quarter 2003                 118                       173
Second Quarter 2003                130                       175
Third Quarter 2003                 138                       183
Fourth Quarter 2003                129                       182
First Quarter 2004                 130                       186
Second Quarter 2004                147                       192
Third Quarter 2004                 151                       196
Fourth Quarter 2004                140                       192
First Quarter 2005                 139                       189
Second Quarter 2005                155                       197
Third Quarter 2005                 158                       200
Fourth Quarter 2005                143                       189
First Quarter 2006                 141                       184
Second Quarter 2006                156                       191
Third Quarter 2006                 156                       196
Fourth Quarter 2006                146                       190
First Quarter 2007                 143                       188
Second Quarter 2007                161                       195
Third Quarter 2007                 164                       199
Note: Capacity trend line increasing steadily from first quarter 2000 to third quarter
2007. The traffic trend line is increasing at a more rapid rate for this same time
period.
Note: Third quarter of 2000, the load factor was 73 percent. The load factor in the
third quarter of 2007 was 82 percent.
Note: All numbers are rounded


Figure 9: Domestic and International Revenue Passenger-Miles
From 2000-2007 (BTS Data)
                                   Domestic Traffic        International Traffic
           Quarter Year          (Revenue Passenger-      (Revenue Passenger-
                                   Miles) in billions        Miles) in billions
      First Quarter 2000                  123                        95
      Second Quarter 2000                 139                       115
      Third Quarter 2000                  140                       126
      Fourth Quarter 2000                 129                       102
      First Quarter 2001                  125                        98
      Second Quarter 2001                 138                       112
      Third Quarter 2001                   131                        111
      Fourth Quarter 2001                  108                         72
      First Quarter 2002                   114                         83
      Second Quarter 2002                  129                         95
      Third Quarter 2002                   134                        104
      Fourth Quarter 2002                  122                         90
      First Quarter 2003                   118                         85
      Second Quarter 2003                  130                         85
      Third Quarter 2003                   138                        105
      Fourth Quarter 2003                  129                         94
      First Quarter 2004                   130                         94
      Second Quarter 2004                  147                        107
      Third Quarter 2004                   151                        117
      Fourth Quarter 2004                  140                        100
      First Quarter 2005                   139                        102
      Second Quarter 2005                  155                        115
      Third Quarter 2005                   158                        125
      Fourth Quarter 2005                  143                        104
      First Quarter 2006                   141                        103
      Second Quarter 2006                  156                        121
      Third Quarter 2006                   156                        128
      Fourth Quarter 2006                  146                        110
      First Quarter 2007                   143                        107
      Second Quarter 2007                  161                        125
      Third Quarter 2007                   164                        134

Note: The trend line for international traffic is increasing very slightly from first
quarter 2000 to first quarter 2006. The traffic trend line for domestic is increasing at a
more rapid rate for this same time period.
Note: All numbers are rounded


Figure 10: International Passenger Traffic Quarterly Revenue Passenger-Miles From
2000 to 2007 BTS Data

     Quarter Year            Latin Traffic         Atlantic Traffic          Pacific Traffic
                              (Revenue                (Revenue                 (Revenue
                           Passenger-Miles)       Passenger-Miles)          Passenger-Miles)
                              in billions            in billions               in billions
 First Quarter 2000               18                     45                        31
Second Quarter 2000               17                     63                        35
 Third Quarter 2000               19                     69                        38
  Fourth Quarter 2000                 16                    52             34
   First Quarter 2001                 19                    46             33
 Second Quarter 2001                  17                    61             34
   Third Quarter 2001                 16                    60             34
  Fourth Quarter 2001                 13                    37             22
   First Quarter 2002                 16                    39             29
 Second Quarter 2002                  15                    50             30
   Third Quarter 2002                 16                    56             33
  Fourth Quarter 2002                 14                    46             30
   First Quarter 2003                 17                    39             29
 Second Quarter 2003                  15                    49             21
   Third Quarter 2003                 17                    58             30
  Fourth Quarter 2003                 15                    48             30
   First Quarter 2004                 19                    44             31
 Second Quarter 2004                  17                    57             33
   Third Quarter 2004                 19                    63             35
  Fourth Quarter 2004                 17                    51             32
   First Quarter 2005                 21                    47             34
 Second Quarter 2005                  19                    60             36
   Third Quarter 2005                 20                    67             38
  Fourth Quarter 2005                 17                    52             35
   First Quarter 2006                 22                    46             35
Second Quarter 2006                   20                    63             37
  Third Quarter 2006                  20                    69             39
Fourth Quarter 2006                   16                    58             36
  First Quarter 2007                  22                    48             36
Second Quarter 2007                   21                    66             38
  Third Quarter 2007                  22                    74             38
                          th
 Note: The September 11 impact had a sharp downward affect on all three areas
 (Latin, Atlantic and Pacific) in the fourth quarter of 2001.
 Note: The SARS epidemic had a negative impact in second quarter, 2003 RPMs for
 the Pacific region.
 Note: All numbers are rounded


Figure 11: Nine Major Airlines Reported Arrivals
Percent Change in Actual Arrivals by Airline August 2007 versus August 2000 (FAA
Data 55 major airports)
                  Percentage
     Airline
                   Change
 Southwest           30%
Alaska                15%
America West         -6%
Northwest            -25%
Continental           -7%
Delta                -37%
American             -33%
US Airways           -54%
United               -30%
Note: All percentages are rounded


Figure 12: Regional Differences in Capacity in All Airports
Percent Change in Available Seats at All Airports August 2007 versus August 2000
(FAA Data)
                                                         Percent
                                                        Change in
                      Region
                                                        Available
                                                          Seats
Northeast     (includes     Connecticut,       Maine,
Massachusetts, New Hampshire, New Jersey, New             -17%
York, Pennsylvania, Rhode Island, Vermont)
Midwest (includes Illinois, Indiana, Iowa, Kansas,
Michigan, Minnesota, Missouri, Nebraska, North            -22%
Dakota, Ohio, South Dakota, Wisconsin)
West (includes Alaska, Arizona, California, Colorado,
Hawaii, Idaho, Montana, Nevada, New Mexico,                -5%
Oregon, Utah, Washington, Wyoming)
South (includes Alabama, Arkansas, Delaware,
Florida, Georgia, Kentucky, Louisiana, Maryland,
                                                           -5%
Mississippi, North Carolina, Oklahoma, South
Carolina, Tennessee, Texas, Virginia, West Virginia)
National Average                                          -11%
Note: All percentages are rounded.


Figure 13: Change in Capacity at Large Airports. Percent Change in Scheduled
Flights and Available Seats at the 31 Largest Airports August 2007 versus August
2000 (FAA Data).
                    Percent Change in   Percent Change in
                    Scheduled Flights   Scheduled Seats
Airports            8/07 vs. 8/00       8/07 vs. 8/00
Kennedy                             23%                 46%
Fort Lauderdale                     18%                 28%
Las Vegas                           27%                 24%
Orlando                              7%                 19%
San Diego                           15%                 14%
Denver                              22%                 13%
Charlotte                           16%                  7%
Tampa                               -9%                  5%
Baltimore                           -5%                  3%
Houston                             23%                  3%
Salt Lake City                      30%                  1%
Philadelphia                         5%                 -1%
Atlanta                             13%                 -4%
Seattle                            -18%                 -4%
Phoenix                             -5%                 -4%
Reagan National                      5%                 -5%
Dulles                             -29%                 -9%
LaGuardia                            5%               -11%
Honolulu                            -5%               -12%
Detroit                             -7%               -13%
Chicago O'Hare                       1%               -14%
Minneapolis                        -13%               -16%
Dallas-Fort Worth                  -18%               -16%
Newark                              -7%               -18%
Miami                              -23%               -20%
Los Angeles                        -18%               -20%
Boston                             -25%               -22%
San Francisco                      -19%               -24%
Cincinnati                         -22%               -41%
St. Louis                          -48%               -56%
Pittsburgh                         -58%               -60%
Note: All percentages are rounded


Figure 14: Length of Domestic Flights
Percent Change in Scheduled Flights by Length of Flight
August 2007 versus August 2000 (FAA Data)


                             Percent Change
   Range in Miles
                                in Flights

0 to 249 miles                    -34%
250 to 499 miles                   -9%
500 to 999 miles                   22%
1,000 miles or more               14%


Figure 15: Short-Haul Flights: Seats by Type of Airline
Available Seats on Flights Less Than 250 Miles
August 2007 versus August 2000 (FAA Data)

                August          August
Carrier Type
                 2000            2007
  Network      6.2 million     2.8 million
 Regionals
               9.8 million     7.4 million
 And Others
  Low-Cost     2.4 million     2.2 million


Figure 16: Domestic and International Air Cargo Traffic. Quarterly Revenue Ton-
Miles From First Quarter of 2003 trough Third Quarter of 2007. BTS Data.

     Quarter Year              Domestic Traffic     International Traffic
                             (Revenue Ton-Miles)   (Revenue Ton-Miles)
                                  in billions            in billions
 First Quarter 2003                    4                      8
Second Quarter 2003                    5                      8
 Third Quarter 2003                    5                      8
Fourth Quarter 2003                    5                      9
 First Quarter 2004                    5                      8
Second Quarter 2004                    5                      9
 Third Quarter 2004                    5                      9
Fourth Quarter 2004                    6                     10
 First Quarter 2005                    5                      9
Second Quarter 2005                    5                      9
 Third Quarter 2005                    5                      9
Fourth Quarter 2005                    6                     10
  First Quarter 2006                 5                      9
 Second Quarter 2006                 5                     10
  Third Quarter 2006                 5                     10
 Fourth Quarter 2006                 6                     11
  First Quarter 2007                 5                     10
 Second Quarter 2007                 5                     10
  Third Quarter 2007                 5                     10
Note: All numbers are rounded


Figure 17: Domestic Market Share by Seller Carrier Group
Airline Market Share of Scheduled Available Seats
August 2000, August 2006, and August 2007 (FAA Data)
               August August August
Carrier Type
                2000   2006   2007
 Network        72%    68%    66%
 Low-Cost       20%    28%    29%
  Others         8%     4%     5%
Note: All percentages are rounded.


Figure 18: Share of Low-Cost Carrier Service Growth
Airline Share of Service by Scheduled Available Seats, August 2007 (FAA Data)

                       Service Growth
  Low-Cost Airline
                         Percentage
Southwest                   38%
JetBlue                     27%
AirTran                     22%
Frontier                    10%
Spirit                       3%


Note: All percentages are rounded.
Figure 19: Market Share of Low Cost Carrier Service
Airline Share of Growth by Scheduled Available Seats, August 2000 to August 2007
(FAA Data)

                        Market Share
  Low- Cost Airline
                        Percentages
Southwest                   58%
JetBlue                     10%
AirTran                     12%
Frontier                    5%
America West                10%
Spirit                      2%
Sun Country                  1%
American Trans Air          1%

Note: All percentages are rounded.


Figure 20: Market Share by Aircraft Type
Percent Share of Scheduled Flights by Type of Aircraft August 2000, 2006, and 2007
(FAA Data)
                   August     August       August
  Aircraft Type
                    2000       2006         2007
Large Jets          56%        49%          49%
Regional Jets       10%        33%          33%
Non-Jet             34%        18%          17%
Note: All percentages are rounded.
Note: Numbers are rounded


Figure 21: Revenues versus Expenses
Major Passenger Carriers Operating Revenues and Operating Expenses First
Quarter 2001 through Third Quarter 2007 (DOT Data)
                             Operating          Operating
         Quarter             Revenues           Expenses
                             In Billions        In Billions
First Quarter 2001              $23.3              $24.1
Second Quarter 2001             $24.3              $25.0
Third Quarter 2001              $21.2              $24.4
Fourth Quarter 2001             $16.6             $20.9
First Quarter 2002              $18.2             $20.9
Second Quarter 2002             $20.4             $21.9
Third Quarter 2002              $20.2             $22.6
Fourth Quarter 2002             $18.8             $21.7
First Quarter 2003              $19.2             $22.2
Second Quarter 2003             $20.3             $21.0
Third Quarter 2003              $21.9             $21.3
Fourth Quarter 2003             $21.0             $21.7
First Quarter 2004              $22.0             $23.0
Second Quarter 2004             $24.7             $23.3
Third Quarter 2004              $24.9             $24.3
Fourth Quarter 2004             $23.4             $25.5
First Quarter 2005              $23.9             $25.4
Second Quarter 2005             $27.2             $26.7
Third Quarter 2005              $28.1             $28.0
Fourth Quarter 2005             $26.3             $27.7
First Quarter 2006              $27.6             $28.0
Second Quarter 2006             $33.2             $29.6
Third Quarter 2006              $32.1             $30.4
Fourth Quarter 2006             $29.3             $28.6
First Quarter 2007              $28.9             $28.1
Second Quarter 2007             $33.2             $30.2
Third Quarter 2007              $34.7             $31.9
Note: All amounts are rounded


Figure 22: Selected Network and Low-Cost Airlines Operating Profit or Loss
System Operations for Quarter Ending September 30, 2007 (DOT Data)
                         Profit or Loss
        Airline
                          (In Millions)
Southwest                    $251.5
America West                 $-40.4
JetBlue                       $76.8
Frontier                       $22.8
Spirit                         $7.7
Air Tran                      $38.5
American                     $264.6
Alaska                        $111.8
US Airways                   $243.1
Continental                 $250.1
United                      $635.4
Northwest                   $459.3
Delta                       $421.8

Figure 23: Accumulated Net Losses and Gains
First Quarter 2001 Cumulatively through Third Quarter 2007
(DOT Data)

Quarter Year            Network     Low-Cost
                        Carriers     Carriers
                       Cumulative Cumulative Sum
                           Sum      Dollars in
                        Dollars in   Billions
                         Billions
First Quarter 2001          -$1        $0.1
Second Quarter 2001        -$1.8       $0.2
Third Quarter 2001         -$4.2       $0.3
Fourth Quarter 2001        -$7.4       $0.2
First Quarter 2002        -$10.4      -$0.2
Second Quarter 2002       -$11.9      -$0.2
Third Quarter 2002        -$14.5      -$0.2
Fourth Quarter 2002       -$18.5      -$0.3
First Quarter 2003        -$20.4      -$0.3
Second Quarter 2003       -$20.7       $0.2
Third Quarter 2003        -$21.2      $0.3
Fourth Quarter 2003       -$21.8       $0.4
First Quarter 2004        -$23.4       $0.4
Second Quarter 2004       -$25.8       $0.5
Third Quarter 2004        -$27.2      $0.5
Fourth Quarter 2004       -$29.7      -$0.1
First Quarter 2005        -$32.8      -$0.3
Second Quarter 2005        $34.8      -$0.2
Third Quarter 2005         $37.5      -$0.2
Fourth Quarter 2005        $57.6      -$0.5
First Quarter 2006         $38.5       $1.0
Second Quarter 2006        $40.0       $1.4
Third Quarter 2006         $40.7       $1.3
Fourth Quarter 2006        $42.9       $1.2
First Quarter 2007         $43.3       $1.3
Second Quarter 2007        $38.0       $1.6
Third Quarter 2007         $36.5       $1.8
Note: Fourth Quarter 2005 - Since the first quarter of 2001 Network Carriers Have
Accumulated Net Losses of 58 billion Dollars
Note: Third Quarter 2007 - Since the first quarter of 2001 Network Carriers Have
Accumulated Net Losses of 37 billion Dollars
Note: Third Quarter 2007 - Since the first quarter of 2001 Low-Cost Carriers Have
Accumulated $1.8 billion Dollars in Net Income.
Note: Numbers are rounded

Figure 24: Cost per Available Seat Mile (CASM)
First Quarter 2001 through Third Quarter 2007
(DOT Domestic Quarterly Data)
      Quarter Year          Network Carriers       Low-Cost Carriers
First Quarter 2001               11.4¢                  8.0¢
Second Quarter 2001              11.2¢                   8.0¢
Third Quarter 2001               11.7¢                  7.8¢
Fourth Quarter 2001              11.7¢                  8.1¢
First Quarter 2002               11.2¢                  7.6¢
Second Quarter 2002              10.9¢                   7.6¢
Third Quarter 2002               10.7¢                  7.4¢
Fourth Quarter 2002              11.1¢                  7.5¢
First Quarter 2003               11.5¢                  7.6¢
Second Quarter 2003              10.8¢                   7.5¢
Third Quarter 2003               10.2¢                  7.3 ¢
Fourth Quarter 2003              10.7¢                  7.5¢
First Quarter 2004               10.7¢                  7.6¢
Second Quarter 2004              10.4¢                   7.7¢
Third Quarter 2004               10.4¢                  7.5¢
Fourth Quarter 2004              10.9¢                  8.6¢
First Quarter 2005               10.8¢                  8.4¢
Second Quarter 2005              10.6¢                   8.1¢
Third Quarter 2005               11.0¢                  8.5¢
Fourth Quarter 2005              11.7¢                  8.7¢
First Quarter 2006               11.6¢                  8.8¢
Second Quarter 2006              11.4¢                  9.2¢
Third Quarter 2006               11.4¢                  9.3¢
Fourth Quarter 2006              11.4¢                  9.1¢
First Quarter 2007               11.4¢                  8.9¢
Second Quarter 2007              11.7¢                  9.1¢
Third Quarter 2007               11.8¢                  9.2¢
Note: All amounts are rounded


Figure 25: Domestic Yield for Seven Major Airlines
Percent Change in Airline Yield from 2000 (ATA Data)

            2001       2002         2003       2004        2005      2006       2007
              %          %            %          %          %         %          %
 Month
          Change     Change       Change     Change     Change     Change     Change
          in Yield   in Yield     in Yield   in Yield   in Yield   in Yield   in Yield
Jan           4%       -13%         -15%       -15%       -21%      -14%       -15%
Feb           0%       -13%         -17%       -17%       -24%      -14%       -16%
Mar          -3%       -15%         -18%       -17%       -21%      -13%       -12%
Apr          -3%       -14%         -18%       -17%       -20%      -10%       -12%
May          -7%       -16%         -19%       -21%       -21%      -12%       -13%
June         -9%       -17%         -19%       -21%       -18%       -8%        -8%
July         -9%       -18%         -15%       -18%       -14%       -4%        -3%
Aug         -13%       -21%         -17%       -22%       -18%       -9%        -6%
Sept        -18%       -17%         -16%       -26%       -20%      -14%       -14%
Oct         -19%       -18%         -18%       -27%       -21%      -17%       -14%
Nov         -16%       -20%         -18%       -22%       -16%      -14%
Dec         -15%       -16%         -14%       -21%       -15%      -14%

Figure 26: Average Short-. Medium-, and Long-Haul Fares Second Quarter 2000-2007
Fares for 300 mi, 1000 mi, and 1500 mi average distances (DOT Data)
  Fiscal Year        Short Haul       Medium Haul        Long Haul
     2000              $116              $177              $226
     2001               $99              $154              $195
     2002              $106              $162              $196
     2003              $112              $161              $195
     2004              $109              $154              $182
     2005              $119              $162              $197


Figure 27: Use of Business Fares
Passengers Using Business Fares as a Percent of All Passengers First Quarter 2000
through Second Quarter 2007 (BTS Data)
                         Percent of Passengers
         Quarter
                         Using Business Fares
First Quarter 2000               21%
Second Quarter 2000              19%
Third Quarter 2000               18%
Fourth Quarter 2000              16%
First Quarter 2001               15%
Second Quarter 2001              14%
Third Quarter 2001               12%
Fourth Quarter 2001              12%
First Quarter 2002               13%
Second Quarter 2002              12%
Third Quarter 2002               12%
Fourth Quarter 2002              13%
First Quarter 2003               14%
Second Quarter 2003              14%
Third Quarter 2003               14%
Fourth Quarter 2003              14%
First Quarter 2004               13%
Second Quarter 2004              12%
Third Quarter 2004               12%
Fourth Quarter 2004              12%
First Quarter 2005               11%
Second Quarter 2005              10%
Third Quarter 2005               10%
Fourth Quarter 2005              10%
First Quarter 2006               10%
Second Quarter 2006              11%
Third Quarter 2006               11%
Fourth Quarter 2006              12%
First Quarter 2007               12%
Second Quarter 2007              11%


Figure 28: Passenger Load Factors
Actual versus Breakeven Percentages Fourth Quarter 2000 through Third Quarter
2007 (DOT Data)
                        Actual
       Quarter           Load      Breakeven
                        Factor    Load Factor
First Quarter 2000       69%          68%
Second Quarter 2000        76%         67%
Third Quarter 2000         76%         71%
Fourth Quarter 2000        70%         72%
First Quarter 2001         68%         74%
Second Quarter 2001        74%         76%
Third Quarter 2001         72%         88%
Fourth Quarter 2001        66%         90%
First Quarter 2002         70%         85%
Second Quarter 2002        74%         83%
Third Quarter 2002         74%         87%
Fourth Quarter 2002        71%         86%
First Quarter 2003         69%         84%
Second Quarter 2003        75%         79%
Third Quarter 2003         78%         75%
Fourth Quarter 2003        73%         77%
First Quarter 2004         72%         75%
Second Quarter 2004        78%         77%
Third Quarter 2004         79%         83%
Fourth Quarter 2004        75%         88%
First Quarter 2005         75%         83%
Second Quarter 2005        80%         80%
Third Quarter 2005         81%         83%
Fourth Quarter 2005        77%         86%
First Quarter 2006         77%         82%
Second Quarter 2006        82%         77%
Third Quarter 2006         81%         79%
Fourth Quarter 2006        78%         79%
First Quarter 2007         77%         78%
Second Quarter 2007        83%         78%
Third Quarter 2007         83%         78%
Note: All percentages are rounded.


Figure 29: Actual Airline Load Factors
Actual Percentages for Third Quarter 2007 (DOT Data)
                         Actual
       Airline            Load
                         Factor
Southwest                76.5%
Delta                    83.9%
America West             84.0%
American                 83.9%
Continental              84.7%
Northwest                87.2%
United                   84.7%
US Airways               83.2%
Alaska                   79.8%
JetBlue                  82.1%


Figure 30: Debt-to-Investment Ratio All Major Airlines
First Quarter 2001 through Third Quarter 2007 (DOT Data)
                             Ratio
         Quarter
                         (Percentage)
 First Quarter 2001           54%
 Second Quarter 2001          54%
 Third Quarter 2001           60%
 Fourth Quarter 2001          66%
 First Quarter 2002           67%
 Second Quarter 2002          69%
 Third Quarter 2002           73%
 Fourth Quarter 2002          87%
 First Quarter 2003           89%
 Second Quarter 2003          90%
 Third Quarter 2003           91%
 Fourth Quarter 2003          91%
 First Quarter 2004           93%
 Second Quarter 2004          96%
 Third Quarter 2004           98%
 Fourth Quarter 2004         102%
 First Quarter 2005          107%
 Second Quarter 2005         110%
 Third Quarter 2005          122%
 Fourth Quarter 2005         207%
 First Quarter 2006          102%
 Second Quarter 2006         104%
 Third Quarter 2006          106%
Fourth Quarter 2006          106%
First Quarter 2007           106%
Second Quarter 2007          69%
Third Quarter 2007           61%

Note: All percentages are rounded


Figure 31: Debt-to-Investment Ratio by Airline
For the Quarter Ending September 30, 2007 (DOT Data)

                      Ratio
   Airlines
                  (Percentage)
Southwest            20.1%
Alaska                59%
America West         2.2%
Northwest            47.7%
Continental          80.1%
American            104.0%
US Airways           44.3%
Delta                45.9%
United               78.2%


Figure 32: Jet Fuel Cost Per Gallon (ATA Data Domestic Fuel Costs)
               2001      2002        2003      2004        2005       2006      2007
  Month       Average   Average     Average   Average     Average    Average   Average
               Cost      Cost        Cost      Cost        Cost       Cost      Cost
January        $0.86     $0.60       $0.84     $0.95       $1.31      $1.79     $1.81
February       $0.85     $0.62       $0.88     $0.97       $1.32      $1.82     $1.75
March          $0.80     $0.62       $1.05     $0.98       $1.45      $1.81     $1.82
April          $0.77     $0.69       $0.83     $1.00       $1.56      $1.90     $1.94
May            $0.78     $0.70       $0.76     $1.08       $1.52      $2.05     $2.04
June           $0.81     $0.67       $0.75     $1.07       $1.56      $2.06     $2.03
July           $0.77     $0.71       $0.78     $1.10       $1.61      $2.08     $2.09
August         $0.77     $0.72       $0.83     $1.18       $1.79      $2.13     $2.12
September      $0.79     $0.77       $0.80     $1.24       $1.90      $1.99     $2.11
October        $0.71     $0.81       $0.82     $1.38       $2.15      $1.87
November       $0.66     $0.77       $0.84     $1.37       $1.86      $1.80
December        $0.57       $0.76    $0.88       $1.27        $1.70    $1.86
Note: December 2001 $0.57.
Note: September 2007 $2.11.
Note: Numbers are rounded


Figure 33: Airport and Airway Trust Fund
FAA Budget and Funding Fiscal Year 2002 to Fiscal Year 2008 (FAA Data)
                        Trust Fund   FAA Budget          Uncommitted
  Fiscal Year
                        Revenues      Request              Balance
     2002                  $9.9        $13.3                 $4.8
     2003                  $9.3        $13.6                 $3.9
     2004                  $9.7        $13.9                 $2.4
     2005                  $10.7       $13.9                 $1.9
     2006                  $11.1       $14.3                 $1.8
     2007                  $11.9       $14.2                 $2.0
     2008                  $12.6       $14.1                 $3.1
Note: Figures for Fiscal Years 2007 and 2008 are estimated.


Figure 34 Departures by Airport Types
Percent Change in Scheduled Domestic Flights August 2001 through August 2007
compared to August 2000 (FAA Data)
                    At            At             At            At
Month Year     Large-Hub     Medium-Hub      Small-Hub      Non-Hub
                Airports      Airports        Airports      Airports
August 2001         1%            2%             0%           -6%
August 2002        -8%           -6%            -6%          -11%
August 2003       -11%           -9%            -7%          -15%
August 2004        -3%           -4%            -1%          -21%
August 2005        -1%           -4%            -1%          -21%
August 2006        -5%           -5%            -8%          -27%
August 2007        -5%           -1%            -1%          -27%
Note: All percentages are rounded

Figure 35: Access to Large Airports
Percent Change in Number of Scheduled Flights and Available Seats August 2007
versus August 2000 (FAA Data)
To Large Airports         Flights       Seats
Large                          -6%          -10%
Medium                          3%           -6%
Small                           0%           -8%
Non-Hub                       -21%           -8%
Note: All percentages are rounded

Figure 36: Regional Differences in Service at Non-Hubs

Percent Change in Available Seats at Non-Hub Airports

August 2007 versus August 2000 (FAA Data)

                                                         Percent Change
                         Region                            in Available
                                                              Seats
Northeast     (includes     Connecticut,       Maine,
Massachusetts, New Hampshire, New Jersey, New                -26%
York, Pennsylvania, Rhode Island, Vermont)
Midwest (includes Illinois, Indiana, Iowa, Kansas,
Michigan, Minnesota, Missouri, Nebraska, North               -28%
Dakota, Ohio, South Dakota, Wisconsin)
South (includes Alabama, Arkansas, Delaware,
Florida, Georgia, Kentucky, Louisiana, Maryland,
                                                             -17%
Mississippi, North Carolina, Oklahoma, South
Carolina, Tennessee, Texas, Virginia, West Virginia)
West (includes Alaska, Arizona, California, Colorado,
Hawaii, Idaho, Montana, Nevada, New Mexico,                  -12%
Oregon, Utah, Washington, Wyoming)
National Average                                             -19%
Note: All percentages are rounded.


Figure 37: Essential Air Service
Congressional Funding and Subsidized Communities Fiscal Year 2001 through
Fiscal Year 2008 (DOT Data)
                                                          Number of
                                     Appropriations
           Fiscal Year                                   Communities
                                       In Millions
                                                          Subsidized
              2001                       $50                 115
              2002                       $113                123
             2003                    $102               125
             2004                    $102               138
             2005                    $106               152
             2006                    $109               153
             2007                    $109               143
             2008                     50                 ?
Note: President’s proposed FY 2008 Budget; actual number of communities
supported is unknown.
